<html>
<title> - HIGH-SPEED PASSENGER RAIL: HOW FAST WILL IT GET HERE?</title>
<body><pre>[Senate Hearing 111-450]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-450

                      HIGH-SPEED PASSENGER RAIL: 
                       HOW FAST WILL IT GET HERE?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
53-266 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 2009....................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Thune.......................................     3
Statement of Senator Rockefeller.................................     4
    Prepared statement...........................................     5
Statement of Senator Hutchison...................................     6
    Prepared statement...........................................     7
Statement of Senator Udall.......................................    37
Statement of Senator Boxer.......................................    37
    Letter, dated June 22, 2009, to Hon. Patty Murray and Hon. 
      Christopher Bond--Transportation, Housing and Urban 
      Development, Appropriations Committee from Hon. Barbara 
      Boxer and Hon. John D. 
      Rockefeller IV.............................................    43

                               Witnesses

Hon. Edward G. Rendell, Governor, Commonwealth of Pennsylvania...     8
    Prepared statement...........................................    10
Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration.................................................    12
    Prepared statement...........................................    13
Joseph H. Boardman, President and Chief Executive Officer, Amtrak    16
    Prepared statement...........................................    19
Hon. Robert Eckels, Chairman, Texas High-Speed Rail and 
  Transportation Corporation.....................................    21
    Prepared statement...........................................    24
Susan A. Fleming, Director Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................    25
    Prepared statement...........................................    27
Tom R. Skancke, Commissioner, National Surface Transportation 
  Policy and Revenue Study Commission............................    29
    Prepared statement...........................................    31

                                Appendix

Response to written questions submitted to Hon. Edward G. Rendell 
  by:
    Hon. John D. Rockefeller IV..................................    47
    Hon. Frank R. Lautenberg.....................................    47
    Hon. Tom Udall...............................................    47
    Hon. Kay Bailey Hutchison....................................    48
    Hon. John Thune..............................................    49
Response to written questions submitted to Hon. Joseph C. Szabo 
  by:
    John D. Rockefeller IV.......................................    49
    Hon. Frank R. Lautenberg.....................................    50
    Hon. Tom Udall...............................................    50
    Hon. Mark Warner.............................................    52
Response to written questions submitted to Hon. Joseph H. 
  Boardman by:
    Hon. John D. Rockefeller IV..................................    53
    Hon. Frank R. Lautenberg.....................................    55
    Hon. Tom Udall...............................................    57
    Hon. Mark Warner.............................................    58
Response to written questions submitted to Susan A. Fleming by:
    Hon. John D. Rockefeller IV..................................    59
    Hon. Kay Bailey Hutchison....................................    60
    Hon. John Thune..............................................    62
Response to written questions submitted to Tom R. Skancke by:
    Hon. John D. Rockefeller IV..................................    64
    Hon. Frank R. Lautenberg.....................................    64
Written question submitted to Hon. Robert Eckels by:
    Hon. John D. Rockefeller IV..................................    64
    Hon. Frank R. Lautenberg.....................................    65

 
                      HIGH-SPEED PASSENGER RAIL: 
                       HOW FAST WILL IT GET HERE?

                              ----------                              


                         TUESDAY, JUNE 23, 2009

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Sorry, the train was a little late in 
getting here.
    Thank you, Mr. Chairman. Among chairmen here, he's the 
Chair. Thank you all for being here, and my apologies for being 
a couple of minutes off target.
    What we'll try to do, in order to expedite things, is limit 
opening statements to the three Senators in attendance, make 
them short, and we'll ask the other members who may come to 
include their opening statement in the record, or in their 
question period. We're going to work in 5-minute cycles.
    I will start by, once again, thanking you all for being 
here. The roles you play are very important, and we're pleased 
to have a chance to talk to you.
    This hearing comes to order.
    We gather here at a rather sad moment. Many lives were lost 
with the crash of the Metro, and there are numbers still to be 
computed of those who not only perished, but those who were 
wounded. What it tells us, as we see the confusion and the 
effort that has followed, is how important the use of the Metro 
transit system is.
    For the last few years, we look and we see Amtrak, because 
we're talking now about intercity rail, but we can't ignore the 
contribution that transit rail makes.
    The last few years, we've seen Amtrak break ridership 
records year after year. In 2008, Amtrak's ridership hit more 
than 28 million riders, marking the sixth straight year of 
gains. These gains prove two important points. It establishes 
the fact that people are sick and tired of waiting in traffic, 
standing in line at the airport, inhaling dangerous emissions, 
and just waiting indefinitely for their travel mechanism to be 
there. If we provide convenient and reliable rail service, 
Americans will choose it.
    Second, these gains prove that this time cries out for 
major investment in high-speed rail. We need to fill a rising 
demand for faster and more efficient rail service.
    For years we've had to fight, beg, and claw for funding for 
passenger rail against those who wanted to bankrupt Amtrak, 
even as more Americans were demanding increased Amtrak service. 
And this chart that we have here, in quick fashion, describes 
some of the hurdles we face. For you who have a problem 
discerning what each of these colors represent, the blue is the 
highway investment since 1949; aviation is the yellow, and 
intercity passenger rail, you can just about see at the bottom, 
is that green band. And when we look at how much we've invested 
in our highways and our aviation system, it's obvious that 
we've invested too little in rail.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We're not suggesting that those other modes aren't 
important, but we need to invest more in rail. Last year, we 
took a major step forward with my landmark law to prepare for 
the next generation, ahead of the traveling demand that's 
obviously building. That law provides $13 billion over 5 years 
to repair and update Amtrak's infrastructure, and develop 
service in towns and cities that are ready for passenger rail. 
We also created new grant programs for high-speed rail 
investment. It has been a long road, but this new law finally 
paves the way for a solid and ongoing Federal commitment to 
passenger rail.
    Fortunately, we have strong partners in the White House, in 
President Obama, Vice President Biden, and with the help of 
Secretary LaHood. They know that to keep our commuters mobile, 
to keep our Nation competitive, and to get our economy back on 
track, we cannot simply rely on cars and planes to get people 
from place to place. We need a balanced transportation system, 
and high-speed rail is part of that balanced equation. And 
that's why the recovery law we passed in February contains more 
than $8 billion for high-speed and intercity passenger rail. 
This money will not only improve rail service, it will create 
jobs.
    In this tough economy, these transportation investments are 
smart investments. They put people to work, reduce delays and 
congestion, and cut carbon emissions and our dependence on 
foreign oil.
    President Obama and his Administration have presented a 
great vision for a high-speed rail network here in America, and 
I'm committed to working with the President to turn that vision 
into reality. I look forward to hearing from our witnesses on 
how we can make that happen. And I turn first to the Ranking 
Member on the Subcommittee, Senator Thune, and then we'll hear 
from Chairman Rockefeller and Ranking Member Hutchison.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for calling this 
very timely hearing.
    We have a very distinguished panel today that I want to 
welcome as well. We look forward to hearing from all of you.
    My State is one of the few in the country that doesn't have 
passenger rail, and you have to hearken back a long ways in the 
annals of history to a time when we did. I recall my father, 
who's now almost 90, talking about taking the railroad back in 
the 1930s from my hometown of Murdo to Mitchell, which is about 
130 or 140 miles, and that was a fairly frequent thing, and 
people at that time traveled by passenger rail a lot. But, it 
has been some time since we've had that in South Dakota. We're 
very dependent upon freight railroading, so I can probably 
approach this issue more dispassionately than most, since 
passenger rail is not something that we have in our State, 
although maybe with all the stimulus money, we could get some. 
That would be nice.
    But, I want to say that the funding that has been made 
available for high-speed rail in the President's budget is an 
opportunity, obviously, not only the stimulus money, but also 
the other $5 billion that's in the next five annual 
appropriation cycles. But I also would argue that it poses some 
risks.
    It's a great opportunity for advancing high-speed corridor 
development, to address our congested corridors between major 
urban areas, but it's also a great financial risk to taxpayers 
if the selection and management of this project is not wisely 
carried out. And this is the key area that I'm most interested 
in hearing about from today's witnesses.
    In my view, the Federal Government generally does a poor 
job of deciding on how to spend its money, and this is 
especially true when it comes to discretionary programs, where 
the Government has to choose between competing projects. One 
common result is that money gets spread thinly over a wide 
range of projects, and as a result, none of them actually gets 
done correctly or quickly. Or the Government uses soft criteria 
that results in choosing unviable or unsustainable projects. We 
also often find that costs spiral out of control, or that the 
original cost estimates were unrealistically low from the 
beginning.
    How does the Department of Transportation and the Federal 
Railroad Administration intend to decide between competing 
projects, and how will the construction of these projects be 
overseen? Specifically, what I'd like to hear our panelists 
discuss today is: How will these projects be chosen, what 
criteria will be used, how will the department validate the 
data such as ridership and project costs submitted by 
applicants, and what oversight will occur, and how will it be 
carried out to ensure the projects come in on budget and on 
time?
    I hope Congress will very closely monitor how this program 
is implemented. I also hope that this program succeeds, and 
when we look back 5 years from now, and after spending as much 
as $13 billion, as is envisioned by the Administration, that 
we'll see great progress in advancing high-speed rail in our 
country. To me, success means rail passenger trains that serve 
real public transportation needs, that have been constructed on 
budget and on schedule, that are filled with passengers, making 
the routes economically viable.
    I want to thank our panelists for appearing today, and for 
sharing their testimony.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you very much.
    The Chairman of the General--Senator Rockefeller--I wanted 
to make him a General, but----
    [Laughter.]

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Chairman Lautenberg.
    First of all I want to apologize. I'm not on the Judiciary 
Committee; the White House is very anxious to have all Senators 
meet with Judge Sotomayor before recess. I have been assigned a 
time at 3:15 p.m. That's kind of for life, for her, should she 
win, which I think she will. And so, I have to excuse myself, 
but I do that without any misgivings, because this is Frank 
Lautenberg's passion, and has been for years, really more than 
anybody. So, I also welcome all of you, including Governor 
Rendell. I just told him, I never see him in person, it's 
always on television, and it's kind of exciting to meet 
somebody like that.
    [Laughter.]
    Senator Warner. Mr. Chairman, you don't know how exciting 
it is; I've worked with him.
    [Laughter.]
    The Chairman. Now, I agree totally with Senator Lautenberg, 
on the excitement of high-speed passenger rail. I've spent 10, 
12 years either chairing or being ranking on the Aviation 
Subcommittee of this body, and it just occurs to me that we're 
down, now, to relatively few airlines with lots of problems. 
And if you just look at the pattern of people's behavior, they 
want to use rail, and they want to use fast rail. So, that's 
what this is about.
    You know, I look at West Virginia, people don't necessarily 
assume that there's a lot of passenger rail through West 
Virginia. It's actually a huge fact, as it is, obviously, in 
southwestern Virginia, also. In fact, our Amtrak service, which 
Senator Lautenberg helped so much, has doubled, in one of its 
lines, in the last year--doubled--and the other has risen by 19 
percent. Now, West Virginians don't travel endlessly, so this 
is a very important statement.
    Earlier this year, Senator Lautenberg and I joined, as he 
indicated, with the Vice President, the $1.3 billion allocation 
to the stimulus package. It was cold, the speeches were not 
very interesting, but the money is real and that's what counts. 
And I have to say, in a nonpartisan fashion, that it is really 
thrilling to have, as Senator Lautenberg pointed out, somebody 
in the White House who really wants this, who really cares 
about it, who doesn't like that level of green up there, who 
wants to increase the green, and in fact has already done that.
    I want to make a special point today to say that I believe 
that passenger rail can do so much for us as a country. That's 
not just a cliche. We need to increase the use of passenger 
rail enormously, not just for passengers but for freight; and 
we need to do it as fast as we possibly can. Transportation 
affects our climate change, it affects one-third of our 
greenhouse emissions in this country. The Department of 
Energy's Oak Ridge National Laboratory says that intercity 
passenger rail is 17 percent more efficient than air travel, 
that it is 21 percent more efficient than auto travel. That 
says something. So, encouraging greater use of it is terribly 
important.
    I'll do everything I can, Senator Lautenberg, to work with 
you to make sure that we can do this and we will. It's 
inevitable. It's part of America's destiny.
    I thank the Chair. And, I apologize to the audience and to 
the witnesses.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I'd like to start this hearing by honoring and remembering those 
who tragically perished in yesterday's catastrophic Washington, D.C. 
Metro accident.
    Current press reports say 9 people lost their lives and many remain 
severely injured, in what is now the deadliest accident in the history 
of the Metrorail system.
    This Committee takes its role in safety oversight extremely 
seriously and we will be paying careful attention to the NTSB 
investigation.
    As we hold this hearing today on high-speed passenger rail 
infrastructure development, let us always be unwavering in our 
commitment to the transportation safety and security for all 
passengers.
    I would like to welcome all of our distinguished guests on this 
panel, including Governor Rendell. It is a pleasure to have you testify 
before the Committee.
    Although high-speed passenger rail is not something people usually 
associate with West Virginia, in fact, travelers in my state routinely 
rely on Amtrak's Capitol Limited and Cardinal services.
    Indeed, West Virginia's Amtrak service continues to improve. I am 
proud to say that in the last year on-time performance of the Capitol 
Limited nearly doubled while the Cardinal has risen almost 19 percent.
    Earlier this year, Chairman Lautenberg and I joined Vice President 
Biden at Union Station to announce the $1.3 billion allocation of 
American Recovery and Reinvestment Act funds to Amtrak.
    It is so refreshing to have such strong leadership from this 
Administration that brings attention to the real importance of 
passenger rail.
    I want to make a special point today to say that I believe 
passenger rail can do so much for our transportation network, our 
environment, and our energy security.
    In fact, one of the provisions of our bill, S. 1036, the Federal 
Surface Transportation Policy and Planning Act, would establish a 
national goal to increase the total usage of passenger rail services--
and this is a very good thing.
    Passenger rail will help us to tackle the climate change crisis and 
secure our Nation's energy supply. The transportation sector is 
responsible for one-third of the Nation's greenhouse gas emissions. We 
simply must address this growing challenge.
    The Department of Energy's Oak Ridge National Laboratories tells us 
that intercity passenger rail is 17 percent more efficient than air 
travel and 21 percent more efficient than auto travel. Encouraging 
greater use of intercity passenger rail will lower emissions and help 
us conserve energy.
    Although we have made large strides to get here today, there is 
still so much more to be done to prepare our transportation system and 
move it safely and securely into the 21st century.
    I want to thank our guests for appearing today, and I look forward 
to hearing from them on how to make this happen.

    Senator Lautenberg. Thanks very much, Senator Rockefeller. 
Your position as Chairman of this Committee is one that gives 
us encouragement that we can achieve this goal of ours, of 
having a more important rail leg to our transportation system. 
We thank you very much for your encouragement.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I am very pleased to be at this hearing, and also to have 
the opportunity to have a Texas presence at the hearing, 
because you and I, Mr. Chairman, have worked for a long time on 
Amtrak, keeping Amtrak viable, and I will say that we have had 
a very productive partnership at keeping the national part of 
Amtrak also viable. And I think that is essential. Now that we 
are beginning to see the possibilities for high-speed rail, I 
think it becomes even more important to have the national part 
of the system also have the opportunity for high-speed rail to 
connect into Amtrak and therefore provide really better 
synergism and ridership and service to both Amtrak and the 
high-speed rail that I do think will help ease the traffic 
congestion in many parts of our country.
    I was very pleased that the first Amtrak authorization 
bill, before this last one, was in 1997, and I sponsored that 
one as Chairman of the Surface Transportation Subcommittee. And 
I think we did some great reforms, in last year's bill, to 
begin the process of having a Federal partnership for capital 
grant programs for States to be able to invest in rail. I think 
that is an important step forward to making it more viable. 
Because any successful rail project is going to have to have 
multiple partners--it's going to have to have private sector, 
Federal and State partners--because it's so expensive, and the 
early investment is expensive, but then it becomes much more 
efficient after it is finally built and established.
    I'm pleased to welcome Mr. Szabo, who will appear for the 
first time in your new position as FRA Administrator, and we're 
glad to have you here. You'll play a major part in this, and 
I'm glad that you're going to have seven regional meetings to 
determine what the parameters for high-speed rail should be. 
And I think having them all over the country is another good 
sign.
    I just want to say that Robert Eckels is the former county 
judge, which is the county executive in Texas, of our largest 
county, Harris County, and he is now heading up the effort for 
a high-speed rail corridor called the Texas T-Bone, and it's a 
great plan that is coming forward and could go right into 
Amtrak and have a lot of great results. And I hope that it is 
one of the first projects that can get some of the stimulus 
funding that would be available. It's great that he's here to 
talk about the national system.
    And I just want to recognize Governor Rendell, who also is 
someone with whom I've worked a long time. And his brother is 
actually my constituent in Dallas, Robert, and also a good 
friend, and someone with whom I've worked also, in Dallas and 
in Texas.
    So, we have a lot of interest here, and I look forward to 
hearing from the witnesses, and it's a very distinguished 
panel.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    These are truly exciting times for those of us who have long been 
advocates of passenger rail, and especially for those of us that have 
believed that the United States should try to develop high-speed rail 
corridors. To be successful, high-speed corridors must tie into our 
existing interstate passenger rail system so that Amtrak corridor and 
long distance trains can serve as feeder systems to support the 
economic success of high-speed rail service, and vice versa.
    Last year, Congress was able to pass the first Amtrak 
reauthorization bill in 11 years--I was the sponsor of the 1997 law--
and was proud to join in cosponsoring last year's authorization as 
well. The recent reauthorization measure made crucial reforms to 
Amtrak's operating and business practices and helped promote the long-
term viability of passenger rail. The new law also, for the first time, 
created Federal passenger rail capital grant programs to help states 
construct and improve passenger rail corridors. This will help put 
passenger rail on equal footing with other modes of transportation that 
benefit from Federal financial assistance.
    We all recognize that high-speed rail necessitates enormous 
resource commitments, such as right-of-way, infrastructure, equipment, 
and labor. Any project's success will also require strong partnerships 
among Federal, state, and local governments, host railroads in many 
cases, and other stakeholders. The economic stimulus bill provided $8 
billion to jump start high-speed rail projects around the country, and 
I am pleased the Federal Railroad Administration (FRA) has started 
working with the states, conducting 7 regional meetings to get 
stakeholder input on how to best establish the parameters of the 
Federal high-speed rail program. It is time to look beyond the 
Northeast Corridor.
    I am very interested in hearing from today's witnesses, and want to 
particularly welcome the new FRA Administrator, Joe Szabo, who is 
testifying for the first time before this Committee in his new 
position. I am also very pleased that Judge Robert Eckels could join us 
today on behalf of the Texas High-Speed Rail and Transportation 
Corporation. He is going to help everyone understand that high-speed 
rail is not just for the East and West Coasts, but it also makes sense 
in places like Texas.
    An efficient national passenger rail system is a crucial element of 
the American transportation system.

    Senator Lautenberg. Thank you very much.
    We made a decision, before, that because of the size and 
the quality of the witnesses here today, that we would forego 
additional opening statements. And we'll try to deal with this 
expeditiously and have 6-minute rounds, to give just an extra 
minute for your members seated.
    I'd like to introduce the witness panel. A good friend and 
Governor, Ed Rendell, of Pennsylvania. Just like the people of 
New Jersey, our neighbors from Pennsylvania rely on trains on a 
daily basis. Governor Rendell has been a vigorous advocate for 
passenger rail, and I recall clearly his satisfaction, and his 
energy, in getting a new rail link between Philadelphia and 
Harrisburg, and it met with almost immediate success. That's 
the kind of stories that we expect to see constantly.
    The Honorable Joseph Szabo, the FRA Administrator. This is 
the first time you've been before this Committee since your 
confirmation. We're looking forward to hearing how you're 
working to develop first-class passenger rail service for our 
Nation. I know your head and your heart are behind that.
    And the Honorable Judge Robert Eckels, Chairman of the 
Texas High-Speed Rail and Transportation Corporation.
    Ms. Susan Fleming, Director of Physical Infrastructure 
Issues at the Government Accountability Office.
    And Tom Skancke, Commissioner of the National Surface 
Transportation Policy and Revenue Study Commission, President 
and CEO of the Skancke Company.
    We thank you all for being here.
    Governor Rendell, if you would, please, take 5 minutes to 
summarize. Try to meet the target, if we can.
    Governor Rendell. Mr. Chairman, you forgot Mr. Boardman.
    Senator Lautenberg. Oh my God, I looked at Joe----
    [Laughter.]
    Senator Lautenberg. We'll fire that person.
    [Laughter.]
    Senator Lautenberg. You know, Ed, that's what happens--you 
take advantage of relationships--we're glad to have you, Joe, 
you've done a great job at Amtrak, we're proud of you, and I'm 
sorry.
    I thank you, Governor, for the reminder.
    We'll start you off at a fresh 5-minute clock.

        STATEMENT OF HON. EDWARD G. RENDELL, GOVERNOR, 
                  COMMONWEALTH OF PENNSYLVANIA

    Governor Rendell. Mr. Chairman, Ranking Member Thune, and 
all the Members of the Committee, it's a pleasure to be here.
    I think this is a momentous opportunity for the country, 
and I would analogize it to the opportunity we had when we 
built the Federal Highway System, but we need to do it right.
    I come here today wearing three hats: as Governor of 
Pennsylvania, as Chairman of the National Governors 
Association, and as Co-Chairman of Building America's Future, 
an organization dedicated to improving and investing in 
America's infrastructure, that I started with Governor 
Schwarzenegger and Mayor Bloomberg, a bipartisan organization, 
and we believe that promoting intercity rail is a key priority 
for America's overall infrastructure plan.
    Mr. Chairman, you talked about the success Pennsylvania's 
had. Teamed up with Amtrak, we've invested $145 million and 
improved the time on that Philadelphia-to-Harrisburg line from 
120 minutes to 90 minutes, and in 2 short years our ridership 
has gone from 898,000 to nearly 1.2 million as a result of that 
change. If we build it right, people will ride it. I have 
absolutely no doubt about that.
    There has been similar progress all around the country, and 
a lot of emphasis on doing what we did. The Harrisburg line has 
been improved to 110 miles an hour. And I want to talk about 
that in a second.
    But I believe, as we look at intercity passenger rail, we 
can't be content, as a nation, to build out 110-mile systems. 
If we do that, we are absolutely consigning ourselves to 
second-class citizenship compared to Asia and Europe. We have 
to find a way to build and finance true high-speed rail. As you 
know, the maglev train in Shanghai runs at 268 miles an hour. 
The Japanese bullet trains are at 170 miles an hour. The French 
TGV is at 160 miles an hour. We can't be content to just build 
out an ordinary system.
    Now, what will high-speed rail do for us, in addition to 
moving passengers and helping our climate control? It'll create 
jobs for our citizens, jobs in building out the system, and 
orders for America's factories. And let me stress the 
importance of that.
    In Pennsylvania alone, we have General Electric 
Transportation in Erie. And most of these factories tend to be 
in hard-hit areas of the country. In Erie, Pennsylvania, they 
employ over 4,000 people. They are ready to build the next 
generation of high-speed locomotives. In Steelton, a little 
town across from Harrisburg, Mittal Steel, the biggest steel 
corporation in the world, has a plant that builds railroad 
tracks. It has 400 workers. With just this $13-billion 
investment, they intend to increase, and maybe double or 
triple, the size of their workforce in doing such.
    TGV, the French high-speed rail system, is run by a company 
called SNCF, the national rail company. They employ over 
200,000 people in good-paying jobs. And let me remind you, 
France is a country one-fifth of the size of the U.S. So, just 
imagine the number of jobs that would be--permanent jobs--in 
building this high-speed rail system, as well as all of the 
construction jobs and the orders for the factories in building 
out the system itself.
    But, if we're going to do this, we have to do it right, and 
we have to do it at scale. Thirteen billion--and I know what 
Senator Thune said, and he's right--in one sense, $13 billion 
is a lot of money. But in another sense it's a small amount of 
money to do what needs to be done.
    To build a high-speed rail up the California coast is 
estimated to be a $45-billion cost factor. To build a high-
speed train from Philadelphia to Pittsburgh, which would link 
the Mid-Atlantic Corridor to the Midwest, would cost between 
$20 and $25 billion alone.
    A couple of months--a couple, actually, weeks ago, Vice 
President Biden had a meeting with six Governors, and it was a 
very interesting meeting. The Governors were all pushing for 
their own projects, 100-mile projects. The Midwest Governors 
said that they have a plan to link the Midwestern cities up at 
100-110 miles an hour. Governor Kane said that there's a plan 
to link Richmond and Washington with a 100-110 mile-an-hour 
train. And then Governor Nixon of Missouri spoke up, and 
Governor Patrick of Massachusetts and myself joined him, and 
said, ``Slow down.'' We can't make this effort building 100-
mile-an-hour train systems, or else we're truly consigning 
ourselves to be a second-class Nation, when it comes to 
transporting our citizens. We have to look at the maglevs, we 
have to look at the bullet trains, and we have to look at 
improving the Acela.
    If we did the work we needed on the Acela line on Amtrak, 
we could go from New York to Washington in a hour and 30 
minutes. We could go from New York to Philadelphia in 33 
minutes. We could consign the shuttle to the rust heap. And by 
doing that we'd improve east-west air traffic all over the 
eastern seaboard. We shouldn't be flying people 500 miles or 
less. We should be putting them on high-speed trains.
    Now, Ranking Member Thune asked a very good question, ``How 
are we going to decide which of these projects--whether it's 
$13 billion or $400 billion--how are we going to decide which 
projects should be given priority?''
    I suggest that we create a national infrastructure bank, 
staffed by professionals--not necessarily professionals, all of 
them, in transportation, it could be some former Members of 
Congress, some former Secretaries of Transportation--and rank 
projects on a cost-benefit analysis, rank projects on priority, 
what they do for transporting people, how many people, the 
effect on climate change, all of those things, an independent 
ranking system. Because the public wants that. The public does 
not want transportation dollars authorized through the same old 
system, and certainly not for projects of this magnitude.
    And last, how are we going to pay for it? Because $13 
billion, as Ranking Member Thune said, is a lot of money. But 
it's just a drop-in-the-bucket. How are we going to pay for 
building a high-speed rail system in this country? I think, two 
ways. I would recommend that the Congress consider using some 
of the money that comes from the national climate change law to 
do just that. What better way could we help our climate than 
getting cars off the road, trucks off the road, by building--
buses off the road--by building a high-speed rail system?
    Or, second, if that money is going to be spoken for 
elsewhere, or if that bill never comes to pass, I think the 
time has come to look for--at a Federal capital budget. You 
know, the Federal Government is the only political entity in 
the United States that does not have a capital budget. To have 
a capital budget, to do the things we can do with a capital 
budget, you have to change the way the CBO and OMB score. They 
can't score the total investment, they've just got to score the 
debt service. Like we do in Pennsylvania. We score what we pay 
for in that year. A Federal capital budget--even if the Federal 
capital budget doesn't fund the total infrastructure picture, 
but just funds the infrastructure bank, it could work.
    So, the time is--in my judgment, the time calls for bold 
and strong actions. If we do this, the Obama Administration and 
this Congress will be remembered the same way that President 
Eisenhower and the Congress he worked with is remembered for 
building the National Highway System.
    [The prepared statement of Governor Rendell follows:]

        Prepared Statement of Hon. Edward G. Rendell, Governor, 
                      Commonwealth of Pennsylvania
    Chairman Lautenberg, Ranking Member Thune, and Members of the 
Committee, thank you for the opportunity to testify before you this 
afternoon on the Obama Administration's high-speed rail strategic plan. 
Not since the implementation of the Interstate Highway System have we 
been afforded such a momentous opportunity to change how this country 
moves forward.
    But in order to succeed we will have to be smart, strategic and 
make tough and honest choices about paying for a first-rate national 
rail system, something this country has long struggled to do. The $13 
billion is a great down payment, but we will need to invest much, much 
more. The good news is that I and many other elected officials across 
this country stand ready to support the effort.
    I am testifying today wearing three hats, as Governor of 
Pennsylvania, as Chairman of the National Governors Association, where 
I have made infrastructure the key initiative for this year, and as Co-
Chair of Building America's Future.
    Last year, I joined with California Governor Arnold Schwarzenegger 
and New York City Mayor Michael Bloomberg to form Building America's 
Future. Our bipartisan coalition of state and local elected officials 
shares a vision for a new era of increased national infrastructure 
investment that will spur job creation and long-term economic 
competitiveness, address climate change and our dependence on fossil 
fuels, and enhance safety and quality of life for our citizens. 
Promoting investment in passenger rail is a key priority for our group.
    Take Pennsylvania as an example. In 2006, we completed a relatively 
modest $145 million improvement project with Amtrak to increase speeds 
on the Keystone Corridor to 110 miles per hour between Harrisburg and 
Philadelphia. The trip time dropped from 2 hours to 90 minutes and the 
result was a 26 percent boost in annual ridership from 890,00 to 1.1 
million.
    There are similar projects all across the country, where 
improvements to existing track and improved signaling can reduce trip 
times and spur big increases in ridership for relatively modest costs. 
There are a number of these that we must undertake.
    But we must also push for a comprehensive network of true high-
speed rail as the Europeans and Asians have built. Such a network will 
be a catalyst for growth and development along its corridors, and will 
better connect Americans as our population continues to grow as well as 
reduce carbon emissions and improve quality of life.
    It could end air travel of less than 500 miles, a positive for both 
travelers and the airline industry. With high-speed rail along the 
Northeast Corridor, the shuttle could shut down and those slots could 
be used for longer, more profitable flights throughout the U.S.
    High-speed rail will create jobs for our citizens and orders for 
American factories, especially in some of the hardest hit parts of our 
country, where there is tremendous manufacturing capacity to build rail 
cars, tracks and equipment using American concrete and steel.
    As the automakers continue to shed workers, consider that the SNCF, 
France's national rail company which runs the TGV, employs over 200,000 
people in a country that's one-fifth the size of the U.S. in 
population. One can only imagine the amount of highly-skilled, good 
paying jobs that would be created and sustained by a robust national 
rail network in this country.
    And Europe and Asia continue to invest in improving their already 
world-class networks. The French TGV has been up and running since 1981 
and now achieves speeds of 199 miles per hour. The Japanese Shinkansen 
was inaugurated in 1964, at a speed of 130 mph, and is now up to 186 
miles per hour. The Beijing-Tianjin train runs up to 217 miles per 
hour; the Shanghai maglev train achieves speeds up to an incredible 268 
miles per hour. At those speeds, train travel is transformed into a 
mode competitive with air and vastly superior to the automobile.
    But building such a system in the U.S. will require public and 
political will to invest well beyond $8 billion in economic recovery 
funds and the $5 billion in the President's FY10 budget in return for 
true high-speed rail. California's system alone is estimated to cost at 
least $45 billion and a national system will cost much more than that.
    The guidance recently issued by the Federal Railroad Administration 
for the $8 billion in economic recovery funds requires only that 
eligible projects demonstrate the capacity to go at least 110 miles-
per-hour. And for many rail routes, that would be a sufficient level of 
improvement, but would not create a world-class high-speed rail system 
that achieves European and Asian speeds.
    A few weeks ago, a group of Governors, including myself, Wisconsin 
Gov. Jim Doyle, Michigan Gov. Jennifer Granholm, Virginia Gov. Tim 
Kaine, Missouri Gov. Jay Nixon, Massachusetts Gov. Deval Patrick, 
Georgia Gov. Sonny Perdue, and Illinois Gov. Pat Quinn were hosted at 
the White House for a discussion on high-speed rail with Vice President 
Biden and Secretary LaHood. There was a lot of excitement and many 
states have plans ready to go, but there was also a realization that we 
are embarking on a huge technical, political and financial undertaking.
    There was general agreement that while there are incremental 
improvements we must make to our current rail system, in the end we 
must do much more. If all we wind up with is upgrading our existing 
19th century rail technology, while our economic competitors forge 
ahead with 21st century rail systems, then we will not have succeeded 
in creating the kind of transformational change President Obama, 
Members of Congress, and so many others have envisioned.
    States across the country are ready and willing to commit resources 
to this effort, but will need an ongoing and significant Federal 
commitment. A high-speed rail system will have a dramatic effect on 
reducing carbon emissions and we should be exploring ways to fund it 
through national climate change legislation as well as other funding 
sources such as gas taxes, VMT fees, tolling and congestion pricing and 
a National Infrastructure Bank.
    Let's seize this moment.
    Thank you, Chairman Lautenberg, Ranking Member Thune, and Members 
of the Committee. I welcome your questions.

    Senator Lautenberg. Thank you very much. I didn't want you 
to speed up at the end but you got me so excited about high-
speed that----
    [Laughter.]
    Senator Lautenberg. Thanks very much.
    And now, Mr. Szabo, we'd like to hear from you.

       STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR, 
                FEDERAL RAILROAD ADMINISTRATION

    Mr. Szabo. Thank you, Chairman Lautenberg, Senator Thune, 
Senator Hutchison, and Members of the Committee. It is 
certainly an honor to appear here today on behalf of President 
Obama, Vice President Biden, and Secretary LaHood to discuss 
the future of high-speed rail.
    The Obama Administration has a vision that ensures safe and 
efficient transportation choices, one that builds a foundation 
for economic competitiveness, one that promotes energy 
efficiency and environmental quality, and one that supports 
interconnected, livable communities. And in each case, 
passenger rail is an integral part of that vision. In many 
cases, even modest investment in existing right-of-ways can 
result in high-speed rail with competitive trip-times and will 
continue rail's unmatched safety record.
    Transportation is the lifeblood of any economy. And, not 
only will the high-speed rail vision improve mobility, but--
obviously the construction will create many short-term jobs, 
but more importantly the sustained investment will revitalize 
domestic rail suppliers and the manufacturing industry.
    Rail is already among the cleanest and most energy-
efficient means of moving goods and people. In fact, one study 
indicates that implementing the current federally-designated 
high-speed rail corridors would result in an annual reduction 
of 6 billion pounds of CO<INF>2</INF>.
    A network, taking our national rail system as a foundation 
with traditional speeds, and then overlaying high-speed rail 
corridors, commuter rail systems, and providing connections 
with transit, will provide those interconnected communities 
that we seek.
    Senator Hutchison mentioned the fact that we had been doing 
extensive outreach, and we feel that that's critical. In the 
development of our guidance, and as we continue to move forward 
with a national rail plan, we believe that that's fundamental. 
We need to reach out and engage stakeholders right from the 
inception of all this.
    We are particularly pleased that in the seven outreach 
sessions that we've conducted so far, nearly 1,200 people 
participated, with a high level of enthusiasm and with a great 
deal of very, very beneficial comments that were, in fact, 
incorporated into the guidance that we just released.
    Our success is going to be determined by these 
partnerships. And like the construction of the highway system, 
States are going to play a very critical role.
    We're on track, and we're using essentially the same model 
that the Europeans did in the rolling out of high-speed rail. 
Our near-term strategy seeks to advance new, express, high-
speed corridor services at speeds over 150 miles-per-hour in 
corridors of 200 to 600 miles, and then for corridors of 100 to 
500 miles we seek to develop both emerging high-speed rail 
corridors at speeds of 90 to 110 mile-an-hour, on track shared 
with freight operations, and also develop high-speed rail 
corridor systems at speeds of 110-150 miles-an-hour on 
dedicated tracks. In addition, we'll be looking to upgrade the 
reliability and quality of traditional 79-mile-an-hour 
intercity service.
    Pleased to report that our guidance document is out. It was 
out on time. And it provides four tracks for possible funding: 
projects that are individual projects, that have individual 
utility and individual benefits; a track for corridor programs, 
which is more comprehensive, on implementing a full buildout of 
a corridor plan; a track for planning, to assist those states 
that aren't quite as far along but still have a keen interest 
in implementing high-speed rail plans; and then an area for 
projects that will provide for a 50-50 split, that will allow 
those states that are willing to help match dollars, allow us 
to stretch our dollars further.
    The criteria for selection will be based strictly on merit. 
We will be measuring the public benefits, those that are 
measurable, achievable, and cost effective. The key element 
will--of that will be the applicant's ability to mitigate risk, 
the applicant's ability--their fiscal capacity to carry out the 
project, their fiscal ability to cover capital and operating 
expenses, and their ability to have adequate project oversight.
    This is a transformation for FRA. Historically we've been a 
safety agency, and safety remains our top priority, but it's 
important to note that our passenger rail staff is--you know, 
it--our staffing levels are from a quieter era, when all we had 
to do was issue a couple of grants to Amtrak, or perhaps to 
short line railroad. And clearly that's changed. We're asking 
the members of this Committee to support the President's Fiscal 
Year 2010 budget that starts to address the staffing problems 
that managing a program of this magnitude will bring to the 
agency. And then, we also ask that the project oversight 
takedown be consistent with the more traditional 1 percent 
instead of the quarter of 1 percent that was authorized for us 
in the Recovery Act.
    And with that, I look forward to your questions.
    [The prepared statement of Mr. Szabo follows:]

      Prepared Statement of Hon. Joseph C. Szabo, Administrator, 
                    Federal Railroad Administration
    Chairman Lautenberg, Senator Thune, and Members of the 
Subcommittee: I am honored to appear before you today on behalf of 
President Obama, Vice President Biden, and Secretary of Transportation 
LaHood, to discuss one of our Administration's most important 
initiatives--the development of high-speed rail transportation in 
America. To supplement this testimony, I wish to incorporate by 
reference two recent publications of the Federal Railroad 
Administration (FRA): Vision for High-Speed Rail in America (April 
2009) and High-Speed Intercity Passenger Rail (HSIPR) Program Notice of 
Funding Availability, Issuance of Interim Program Guidance. (June 
2009). Both documents are available on FRA's website: www.fra.dot.gov.
     America faces a new set of transportation challenges--creating a 
foundation for economic growth in a more complex global economy, 
promoting energy independence and efficiency, addressing global climate 
change and environmental quality, and fostering livable communities 
connected by safe and efficient modes of travel. The existing 
transportation system requires significant investment simply to rebuild 
and maintain critical infrastructure and modernize aging technologies. 
Meeting our 21st century challenges will require new transportation 
solutions as well.
    The Obama Administration believes that our transportation 
investment strategy must address several strategic goals in the coming 
years:

  <bullet> Ensure safe and efficient transportation choices. Promote 
        the safest possible movement of goods and people, and optimize 
        the use of existing and new transportation infrastructure.

  <bullet> Build a foundation for economic competiveness. Lay the 
        groundwork for near-term and ongoing economic growth by 
        facilitating efficient movement of people and goods, while 
        renewing critical domestic manufacturing and supply industries.

  <bullet> Promote energy efficiency and environmental quality. 
        Reinforce efforts to foster energy independence and renewable 
        energy, and reduce pollutants and greenhouse gas emissions.

  <bullet> Support interconnected livable communities. Improve quality 
        of life in local communities by promoting affordable, 
        convenient, and sustainable housing, energy, and transportation 
        options.

    A New Transportation Vision. President Obama proposes to help 
address the Nation's transportation challenges by investing in an 
efficient, high-speed passenger rail network of 100-600 mile intercity 
corridors that connect communities across America. High-speed intercity 
passenger rail (HSIPR) is well positioned to address many of the 
Nation's strategic transportation goals:

        Safe and efficient transportation options. Rail is a cost-
        effective means for serving transportation needs in congested 
        intercity corridors. In many cases, modest investment on 
        existing rights-of-way can result in HSIPR service with highly 
        competitive trip times, while also providing ancillary benefits 
        to energy-efficient freight rail service. HSIPR also has a 
        strong track record of safety in the United States and 
        overseas. In Japan, for instance, the Tokaido Shinkansen trains 
        have operated without a derailment or collision since the 
        inception of operations in 1964.

        Foundation for economic competitiveness. America's 
        transportation system is the lifeblood of the economy. 
        Providing a robust rail network can help serve the needs of 
        national and regional commerce in a cost-effective, resource-
        efficient manner, by offering travelers and freight convenient 
        access to economic centers. Moreover, investments in HSIPR will 
        not only generate high-skilled construction and operation jobs, 
        but it can potentially also provide a steady market for 
        revitalized domestic industries producing such essential 
        components as rail, control systems, locomotives, and passenger 
        cars.

        Energy efficiency and environment quality. Rail is already 
        among the cleanest and most energy-efficient of the passenger 
        transportation modes. A future HSIPR network using new clean 
        diesel and electric power can further enhance rail's 
        advantages.

        Interconnected livable communities. Rail transport has 
        generally been associated with ``smart growth'' because it can 
        foster higher-density development than has typically been 
        associated with highways and airports. Rail is uniquely capable 
        of providing both high-speed intercity transportation and its 
        own efficient local access and egress system. For example, in 
        the Boston Region, Amtrak's Acela serves two downtown stations 
        connected to public transit--South Station and Back Bay--as 
        well as a suburban station near Route 128. Yet just a few miles 
        down the line to the west, Acela achieves speeds up to 150 
        miles-per-hour.

    Developing a comprehensive high-speed intercity passenger rail 
network will require a long-term commitment at both the Federal and 
State levels. The President proposes to jump-start the process with the 
$8 billion down payment provided in the American Recovery and 
Reinvestment Act of 2009 (Recovery Act) and a high-speed rail grant 
program of $1 billion per year (proposed in his Fiscal Year (FY) 2010 
budget).
    A major reshaping of the Nation's transportation system is not 
without significant challenges. After decades of relatively modes 
investment in passenger rail, the United States has a dwindling pool of 
expertise in the field and a lack of manufacturing capacity. Federal 
and State Governments face a difficult fiscal environment in which to 
balance critical investments priorities, and many will have to ramp up 
their program management infrastructure. The country's success in 
creating a sustainable transportation future, however, demands that we 
work to overcome these challenges through strong new partnerships among 
State and local governments, railroads, manufacturers, and other 
stakeholders, along with the renewed Federal commitment proposed here.
    The near-term investment strategy seeks to:

  <bullet> Advance new express high-speed corridor services (operating 
        speeds above 150 mph on primarily dedicated track) in select 
        corridors of 200-600 miles.

  <bullet> Develop emerging and regional high-speed corridor services 
        (operating speeds up to 90-110 mph and 110-150 mph respectively 
        on shared and dedicated track) in corridors of 100-500 miles.

  <bullet> Upgrade reliability and service on conventional intercity 
        rail services (operating speeds up to 79-90 mph).

    This near-term strategy emphasizes making investments that yield 
tangible results within the next several years, while also creating a 
``pipeline'' that enables ongoing corridor development.
    Proposed Funding Approach. In order to meet the goals of the 
Recovery Act while initiating a transformational new program, we 
propose to advance four funding ``tracks'':

  <bullet> Projects. Provide grants to complete individual projects 
        that are ``ready to go'' with preliminary engineering and 
        environmental work completed.

  <bullet> Corridor programs. Enter into cooperative agreements to 
        develop entire phases or geographic sections of corridor 
        programs that have completed corridor plans and service level 
        environmental documentation, and have a prioritized list of 
        projects to meet the corridor objectives; this approach would 
        involve additional Federal oversight and support.

  <bullet> Planning. Enter into cooperative agreements for planning 
        activities using FY 2009 appropriations funds, in order to 
        create the corridor program and project pipeline need to fully 
        develop a high-speed rail network.

  <bullet> FY 2009 Appropriations Funded Projects. As an alternative 
        for projects that would otherwise fit under Track 1, but for 
        State applicants offering at least a 50 percent non-Federal 
        share of total project financing, enter into grants with more 
        simplified terms, including more time to complete the project, 
        than required under Track 1.

    As President Obama outlined in his March 20, 2009, memorandum, 
Ensuring Responsible Spending of Recovery Act Funds, program evaluation 
will be based on ``transparent, merit-based selection criteria.'' 
Criteria will include:

  <bullet> Public Benefits. The extent to which the project or corridor 
        program provides specific, measurable, achievable benefits in a 
        timely and cost-effective manner, including: (1) contributing 
        to economic recovery efforts, (2) advancing strategic 
        transportation goals (outlined above), and (3) furthering other 
        passenger rail goals articulated in the Passenger Rail 
        Investment and Improvement Act of 2008 (PRIIA).

  <bullet> Risk Mitigation. The extent to which the project or corridor 
        program addresses critical success factors, including: (1) 
        fiscal and institutional capacity to carry out projects, (2) 
        realistic financial plans for covering capital and operating 
        costs, (3) formal commitments from key stakeholders (e.g., 
        railroads and participating States), and (4) adequate project 
        management oversight experience and procedures.

    As provided for in the Recovery Act and PRIIA, the universe of 
potential applicants is limited to States, groups of States, and under 
some circumstances, Amtrak. The focus on State-based passenger rail 
investment decisions is new for FRA. It is abundantly clear that 
success, which I take to mean a sustainable program delivering true 
transportation benefits in a cost-effective, environmentally positive 
and energy efficient manner, can only be achieved through the 
development of new partnerships between FRA and the States and regions.
    Finally, the President's high-speed rail initiative will transform 
FRA as an agency in many ways. In the more than 25 years that I have 
known of FRA, it has been a safety agency that also gave Amtrak its 
annual grant. In my mind, safety will always be FRA's top priority. But 
we now have a new, and very important financial assistance mission with 
a new set of partners and stakeholders. While high-speed rail is an 
important part of this new mission, so too are our expanded 
relationship with Amtrak, the new grant programs authorized over the 
last couple of years and our credit assistance program.
    FRA's financial assistance staff today is sized for that earlier, 
quieter era. Even though PRIIA added a number of responsibilities in 
the areas of passenger rail and financial assistance to FRA's mission, 
that Act did not authorize an expansion of FRA's financial assistance 
staff. That they have produced high quality products in response to the 
aggressive schedule in the Recovery Act is a testament to the 
knowledge, skill and dedication of that small staff. Having said that, 
we cannot successfully manage the high-speed rail program envisioned by 
the President and implement the provisions of PRIIA and undertake our 
other new and expanded financial assistance functions contained in 
other recent Acts with the present levels of staff and other resources. 
The President's FY 2010 budget begins to address FRA's financial 
assistance staff and resource needs. I urge members of this Committee 
to support this request. I will also note that successful 
implementation of the Recovery Act, including oversight of the 
expenditure of $8 billion, will require that the amount of these funds 
available for use by the Secretary in project oversight be consistent 
with the 1 percent authorized in 49 U.S.C. 24403(b)(1) and not the one 
quarter of 1 percent authorized in the Recovery Act.
    In closing, let me restate the obvious, these are exciting times at 
FRA and the Department of Transportation. Long-serving staff at FRA 
have told me that they have never before seen the level of 
Administration support for rail programs that they see today from 
President Obama, Vice President Biden and Secretary LaHood. But if our 
efforts are to be successful, we will need Congressional support too. I 
look forward to working with the Members of the Congress in general and 
this Committee in particular to help this Nation reap the numerous 
benefits offered by high-speed rail.

    Senator Lautenberg. Thank you very much.
    And now, Mr. Joe Boardman, the President and CEO of Amtrak, 
as the current CEO, former FRA Administrator, former State 
transportation official.
    Joe, forgive me again for leaving you at the station when 
the train was pulling out, but----
    [Laughter.]
    Senator Lautenberg.--I'm back, apologetically.
    Mr. Boardman. All is forgiven, and I hope never to leave 
you at the station, Senator.
    [Laughter.]

STATEMENT OF JOSEPH H. BOARDMAN, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, AMTRAK

    Mr. Boardman. Thank you, Mr. Chairman, and Senators, all.
    Amtrak has been providing intercity passenger service for 
nearly 40 years, and we regard ourselves as the leaders in the 
field. But half of our 310 daily trains operate on some part of 
the Northeast Corridor, which is currently the only high-speed 
railroad on the continent.
    Its operation--in its operation, we've built, gradually but 
surely, into a 150-mile-an-hour railroad. This has given us a 
unique and unparalleled experience in the operation of service 
above 100 miles-an-hour, under North American conditions.
    I recently returned from an extensive tour of our Western 
operations, in fact 9,000 miles worth of riding the train and 
47 Amtrak-prepared meals.
    [Laughter.]
    Mr. Boardman. They were all good, but I would have had a 
little more variety.
    I can assure you that the mood of our employees and our 
supporters is optimistic. People are excited about the future 
of Amtrak and intercity passenger rail, and there's a real 
sense that we have a historic opportunity ahead of us.
    The Passenger Rail Investment and Improvement Act, or 
PRIIA, establishes a new partnership between the Federal 
Government, the states, Amtrak, and the freight railroads. This 
Committee played a pivotal role in the development and 
enactment of the legislation. This is my first appearance 
before this Committee as President of Amtrak, and so, on behalf 
of the company and all of our supporters, I would like to thank 
the Committee, and, in particular, Senator Lautenberg and 
Senator Hutchison, for your wisdom and your efforts on our 
behalf.
    Under PRIIA, each entity has a clearly defined role. The 
states are the strategic planners, they decide which markets 
should be served by rail, and they fund the operating cost for 
new or expanded corridor services. While the Federal matching 
program provides funding for capital projects, states will need 
to provide the annual funding for those portions of the 
operating cost that are not covered by revenues.
    The U.S. Department of Transportation coordinates state 
efforts and administers the Federal Capital Fund for Corridor 
Development. Amtrak is the Nation's rail operator. It designs 
and provides service on behalf of the States and the Federal 
Government, in cooperation with the host companies, which own 
much of the railroad right-of-way. This is an extraordinary 
vision, and a lot of the ideas that are contained in it will 
probably be components of the transportation reauthorization 
bill that's going to come before Congress in the coming years.
    The American Recovery and Reinvestment Act, or ARRA, builds 
on this vision, and expands on it. It provides Amtrak with a 
direct grant of $1.3 billion for capital improvements. It funds 
the high-speed rail intercity passenger rail, and rail 
congestion mitigation grant programs, with $8 billion of 
capital fund. ARRA will focus attention and funding on those 
projects that can be accomplished in the nearer term, 
essentially, in the next 5 to 7 years. To address longer-term 
development needs, President Obama has proposed to make about a 
billion dollars-a-year available for grant funding.
    A lot of the discussion that has followed has been about 
speed. But the real issues are trip time and market relevance, 
and the natural yardstick for comparison is the automobile. So, 
when we talk about improving speeds, we need to be thinking 
about those increases in the context of their effect on trip 
times.
    Frequency is also a major component of relevance, and we 
need to make sure that we're developing a sufficient number of 
frequencies in our services to provide travelers with a range 
of choices.
    There are really three ways to build, develop, or improve 
passenger train speeds. The best known method is one that a lot 
of people have in mind when they say ``high-speed rail.'' And 
it's, by an order of magnitude, the most expensive and time 
consuming: trains that operate routinely in the 120--150 to 220 
mile-an-hour range. These projects require a new right-of-way, 
with very high standards of engineering. Our dedicated 
passenger railroads require the newest and most modern 
equipment, are electrified, and serve relatively few 
intermediate points. They're basically end-point-focused 
services.
    Another model is the higher-speed service that's developed 
incrementally on an existing railroad. To do this, track and 
infrastructure upgrades--are upgraded to an existing line. 
Depending on the route, this could also entail some smoothing 
out of curves and perhaps grades, as well as some improvement 
to grade crossings and signaling systems. This is exactly the 
process that began on the Northeast Corridor after 1976, when 
Amtrak gained control of it. And over the years we've gradually 
raised speeds from--to 125, and then, in places, to 135 and 150 
miles-an-hour.
    There is, however, a natural sweet spot at 110 miles-an-
hour that offers some significant advantages. You don't need to 
close or separate grade crossings, you can operate diesel-
powered services with existing equipment, most importantly you 
don't necessarily need a dedicated track or right-of-way, 
although in some circumstances they might be desirable. Those 
are formidable cost advantages, and 110-mile-an-hour service 
still allows the reduced trip times that make rail service 
competitive in certain markets.
    Finally, there's a third strategy to improving service. 
It's reducing the portions of your journey that trains cover at 
a low or very low speeds. Our goal is not raw speed. But it's, 
rather, an economical, reliable, and trip-time-competitive 
service. A big part of reducing trip time involves finding ways 
to raise operating speeds at that low end of the range.
    We recently replaced a heavily trafficked crossing in 
Chicago's Brighton Park. There was no interlocking protection, 
so trains actually had to come to a stop before getting a 
signal to proceed at 10 miles-an-hour. We can now move trains 
through that interlocking at 40 miles-an-hour, and this has 
allowed us to lop several minutes off the average operating 
time through this section.
    I hope the Committee will keep Amtrak and intercity 
passenger rail in mind as it considers some of the pending 
legislation we expect to see in the coming months. 
Transportation emissions need to be addressed in any proposed 
climate change policy solution, and we believe expanded 
intercity passenger rail offers significant opportunities to 
reduce carbon emissions.
    I want to commend Chairman Rockefeller and Chairman 
Lautenberg for their recently introduced Surface Transportation 
Policy Bill. This Bill is an excellent framework for the 
reauthorization, and it moves us in the direction of a mode-
neutral program that uses policy outcomes to guide 
transportation investments.
    Transportation policy that's focused on outcomes would 
allow the Federal Government to focus its limited resources on 
investments that achieve real benefits.
    Senator Lautenberg. Thank you.
    Mr. Boardman. Thank you.
    [The prepared statement of Mr. Boardman follows:]

               Prepared Statement of Joseph H. Boardman, 
             President and Chief Executive Officer, Amtrak
    Good morning. I'm pleased to have the opportunity to come before 
this Committee to discuss the opportunities and challenges for high-
speed rail that we see at Amtrak. Development of high-speed and 
intercity passenger rail service is an essential step our country must 
take to address pressing national needs such as urban mobility, modal 
congestion, fuel efficiency, emissions reductions, and economic 
development. Amtrak has been providing intercity passenger service for 
nearly forty years, and we regard ourselves as the leaders in the 
field. About half of our 310 daily trains operate on some part of the 
Northeast Corridor, which is currently the only high-speed railroad on 
the continent. It's an operation we have built, gradually but surely 
into a 150 mph railroad. This has given us a unique and unparalleled 
experience in the operation of service above 100 mph under North 
American conditions. It has also helped us to forge a strong working 
relationship with the Federal Railroad Administration, a relationship 
dating back to the early 1970s. They have a strong sense of our needs; 
we in turn are deeply aware of the views, needs and concerns that 
underpin their policies. In the last few years, Amtrak and the FRA have 
established a strong pattern of cooperation that will serve us well in 
the years to come. We also understand the concerns and challenges of 
the freight railroads. Those will be of great importance, since much of 
the future of high-speed passenger rail development relies on 
privately-owned track and right-of-way. Finally, we recognize the need 
to manage expectations. The opportunities are very real, but we must 
stay grounded if we are to realize the potential of this tremendous 
moment. I recently returned from an extensive tour of our Western 
operations. I can assure you that the mood of our employees and 
supporters is optimistic. People are excited about the future of Amtrak 
and intercity passenger rail, and there's a real sense that we have a 
historic opportunity ahead of us.
    The Passenger Rail Investment and Improvement Act (or ``PRIIA'') 
establishes a new partnership between the Federal Government, the 
states, Amtrak and the freight railroads that recognizes these 
realities. This Committee played a pivotal role in the development and 
enactment of the legislation. This is my first appearance before this 
Committee as the President of Amtrak, and so on behalf of the company 
and all of our supporters, I would like to thank the Committee, and 
particularly, Senator Lautenberg and Senator Hutchison, for your wisdom 
and your efforts on our behalf. Many of the efforts I am about to 
discuss would not be conceivable, let alone possible, without the 
framework of policy this Committee worked so hard to enact.
    Under PRIIA, each entity has a clearly defined role. The states are 
the strategic planners; they decide which markets should be served by 
rail, and they fund the operating costs for new or expanded corridor 
services. While the Federal matching program provides funding for 
capital projects, states will need to provide the annual funding for 
those portions of the operating cost that are not covered by revenues. 
The U.S. Department of Transportation coordinates state efforts and 
administers the Federal capital fund for corridor development. Amtrak 
is the Nation's rail operator; it designs and provides service on 
behalf of the states and Federal Government in cooperation with the 
host companies, which own much of the railroad right-of-way. This is an 
extraordinary vision, and a lot of the ideas that are contained in it 
will probably be components of the transportation reauthorization bill 
that's going to come before the Congress in the coming years.
    The American Recovery and Reinvestment Act (or ``ARRA'') builds on 
this vision and expands on it. It provides Amtrak with a direct grant 
of $1.3 billion for capital improvements. It funds the high-speed rail, 
intercity passenger rail and rail congestion mitigation grant programs 
with an $8 billion capital fund. ARRA will focus attention and funding 
on those projects that can be accomplished in the nearer term, 
essentially the next 5-7 years. To address longer-term development 
needs, President Obama has proposed to make about a billion dollars a 
year available for grant program funding.
    A lot of the discussion that has followed has been about speed, but 
the real issues are trip time and market relevance, and the natural 
yardstick for comparison is the automobile. So when we talk about 
improving speeds, we need to be thinking about those increases in the 
context of their effect on trip times. Frequency is also a major 
component of relevance, and we need to make sure that we are developing 
a sufficient number of frequencies on our services to provide travelers 
with a range of choices.
    There are really three ways to build, develop, or improve passenger 
train speeds. The best-known method is one that a lot of people have in 
mind when they say ``high-speed rail,'' and it is by an order of 
magnitude the most expensive and time-consuming: a brand-new 
electrified right-of-way that's specifically engineered to carry very 
fast trains--trains that operate routinely in the 150-220 mph range. 
These projects require a very high standard of engineering, are 
dedicated passenger railroads, require the newest and most modern 
equipment, are electrified, and serve relatively few intermediate 
points; they're basically endpoint-focused services.
    Another model is the higher speed service that's developed 
incrementally on an existing railroad. To do this, track and 
infrastructure are upgraded on an existing line. Depending on the 
route, this could also entail some ``smoothing out'' of curves, and 
perhaps grades, as well as some improvements to grade crossings and 
signaling systems. This is exactly the process that began on the 
Northeast Corridor after 1976 when Amtrak gained control of it, and 
over the years we have gradually raised speeds to 125 mph, and then in 
places to 135 mph and 150 mph. There is, however, a natural ``sweet 
spot'' at 110 mph that offers some significant advantages--you don't 
need to close or separate grade crossings, and you can operate diesel-
powered services with existing equipment. Most importantly, you don't 
necessarily need a dedicated track or right-of-way--although in some 
circumstances they might be desirable. Those are formidable cost 
advantages--and 110 mph service still allows the reduced trip times 
that make rail service competitive in certain markets.
    Finally, there's a third strategy to improving service--it's 
reducing the portions of your journey that trains cover at low or very 
low speeds. Our goal is not raw speed, but rather an economical, 
reliable and trip time-competitive service. A big part of reducing trip 
time involves finding ways to raise operating speeds at the lower end 
of the range; congestion reduction could be a strategy in the Chicago 
area, for example, where heavy traffic frequently delays our trains at 
crossings, junctions, and yards. We recently replaced a heavily 
trafficked crossing at Brighton Park. There was no interlocking 
protection, so trains actually had to stop before getting a signal to 
proceed at 10 mph. We can now move trains through the new interlocking 
at 40 mph, and this has allowed us to lop several minutes off the 
average operating time through this segment.
    The stimulus money will advance high-speed rail around the country 
and it will offer some breakthroughs. More importantly, I believe, is 
that the money will only flow to projects which provide significant and 
demonstrable results. There are corridors that are ready and primed for 
development. Congress and the Administration have challenged us--really 
all of us at this table, and we have to prove ourselves. In 4 years, I 
hope we can point to tangible results, with more on the way. In that 
light, I believe we will have earned the right to keep moving forward 
and bringing relevant, fast service to more regions of the country. 
Amtrak wants to be the high-speed rail operator in the United States. 
We are willing to partner with states to provide whatever service is 
required to succeed in the marketplace, whether it's the addition of 
frequencies on existing conventional services or the operation of a 
true high-speed service. Amtrak is committed to the development of the 
national rail system.
    I am very optimistic about the potential for passenger rail in this 
country. While we're feeling the effects of the economy, this is the 
moment to invest. We need to be putting money into the network in 
anticipation of the demand that's coming. We got a real warning of the 
need last summer when the gasoline prices hit $4 a gallon, and the 
ridership growth on our trains and on transit lines around the country 
highlighted the national interest in individual mobility. As it is, 
we're seeing a gradual but very real growth in gas prices since the 
beginning of the year. I think we have a real opportunity to realize 
some substantial improvements in the speed and reach of our service, 
and I look forward to working with the Committee, the states, the FRA 
and our rail industry partners in the coming years as we strive to 
effect some tremendous, measurable, and enduring improvements.
    With these opportunities come challenges. The enactment of PRIIA 
and ARRA requires us to update and refocus our organization and our 
policies to meet our new roles in this exciting era for passenger rail. 
Additionally, we are currently undertaking large investment programs 
funded by our ARRA funds and hope to expand this work in partnership 
with the states through future grants. This work will place significant 
new demands on Amtrak and will similarly tax the resources and 
organization of the FRA and the states. In particular, many of our 
state partners are not staffed for this new mission and many are facing 
financial difficulties, which may particularly affect their ability to 
provide the operating support for corridor services that is required by 
PRIIA. As we seek to better understand these challenges, we will keep 
the Committee apprised of any additional needs and assistance that we 
identify and we ask for your continued support, which has always been 
so important to us, so that we can help assure that your vision for an 
expanded and effective intercity passenger rail network is realized.
    Finally, I hope that the Committee will keep Amtrak and intercity 
passenger rail in mind as it considers some of the pending legislation 
we expect to see in coming months. As we address climate change, for 
example, I would note that transportation emissions need to be 
addressed in any proposed policy solution and that we believe expanded 
intercity passenger rail service offers significant opportunities to 
reduce carbon emissions. Regarding the reauthorization of the Federal 
surface transportation programs, I want to commend Chairman Rockefeller 
and Chairman Lautenberg for their recently introduced surface 
transportation policy bill. This bill is an excellent framework for the 
reauthorization and it moves us in the direction of a mode-neutral 
program that uses policy outcomes to guide transportation investments. 
With such a policy in place, I believe intercity passenger rail would 
finally be placed on a level playing field and enabled to contribute 
more significantly to solving the mobility challenges facing our 
Nation. A transportation policy that focused on outcomes would allow 
the Federal Government to focus its limited resources on investments 
that achieve real benefits such as reduced carbon emissions, energy 
efficiency and congestion mitigation. Intercity passenger rail and 
Amtrak can help us to achieve each of these much-needed goals, and I 
look forward to working with you in the coming months as we strive to 
translate them from legislation into national policy.

    Senator Lautenberg. And, Mr. Eckels, we're pleased to have 
you with us. I didn't mention, before, that the High-Speed Rail 
and Transportation Corporation that you're with is a Texas 
facility. And we have had the good fortune to work with Senator 
Hutchison over the years. I must say that she was a light at 
the end of the tunnel in some of the really tough moments that 
we had, and it was a pleasure to work with you. Thank you.
    Mr. Eckels, please.

  STATEMENT OF HON. ROBERT ECKELS, CHAIRMAN, TEXAS HIGH-SPEED 
              RAIL AND TRANSPORTATION CORPORATION

    Mr. Eckels. Yes, sir, we have been--enjoyed working with 
Senator Hutchison over the years on high-speed rail, in fact, 
in the days of the Authority in Texas and here into our current 
planning process.
    And before you fire your staff for missing Mr. Boardman on 
your list, I want to thank them for their help to me in--I'm a 
tardy person in getting in my testimony today, on airplanes, 
and they were very helpful, and I appreciate their support and 
assistance.
    I also want to thank Ranking Member Thune and all the 
Senators for being here today, and the interest that you have 
in this project in our State, and these projects across the 
country.
    I believe that this technology will transform 
transportation and mobility in the United States, and I know 
that I am by no means alone in this belief, and I'm encouraged 
by the comments we're hearing here today.
    Governor Rendell made the good point about high-speed 
intercity rail passenger service, defined at 185 miles-per-hour 
and higher, is, we think, the most important thing to remember, 
as you talk about high-speed rail, as evidenced by the examples 
around the world, the projects that actually work, that provide 
real significant potential to reduce potential in our--reduce 
the congestion in our crowded skies and highways, reduce carbon 
emissions, reduce our demand for foreign oil, create hundreds 
of thousands of jobs, and stimulate and orchestrate economic 
development and growth across our country right now.
    I was not invited here to talk about the--preaching to the 
choir, though, for high-speed rail. You're aware of the 
benefits, we've all talked about that today. I was brought here 
more to discuss how close we are to seeing these benefits, and 
what must be done to ensure that we get where we want to be.
    The President and Secretary LaHood have made their vision 
clear. They want world-class high-speed rail in this country. 
To reap the kinds of benefits that we're talking about today, 
and, Senator Thune, to justify the tremendous investment that 
has already begun, and, if increased as recommended by Chairman 
Oberstar, and Ranking Member Mica, and this Committee, we must 
set that bar incredibly high. And Governor Rendell has 
commented that our country is ready for, and must have, truly 
fast and efficient passenger travel, trains that are capable of 
speeds of 185 miles-per-hour or more.
    When President Kennedy declared that this country would put 
a man on the Moon before the end of the 1960s, he knew that his 
bold, aggressive promise would require a new culture, a new 
mindset, and ultimately a new administration in NASA to become 
a reality. This kind of example is something that I think we 
should be mindful of today.
    Don't misunderstand me, I have complete confidence in the 
United States Department of Transportation and Secretary 
LaHood, his colleagues at the Federal Railroad Administration, 
and I have no doubt that the President has assembled a team, 
including Administrator Szabo--and we have not had a chance to 
work together, but with Deputy Administrator Karen Rae--we had 
the pleasure of being with her a few weeks ago in Houston at 
one of the outreach sessions--they're fully capable of 
developing the system throughout the Nation. In order for 
America's, in the broadest sense of the term, ``moonshot'' to 
become a reality, we--and that is all of us here, as well as 
Members of Congress--must work in concert with the same bold 
vision. We must consider this revolutionary initiative in its 
proper context, and recognize that the clear view of this 
administration and Congress, combined with the mounting public 
and private-sector support for groups such as the Texas High-
Speed Rail and Transportation Corporation, the California High-
Speed Rail Authority, the Florida High-Speed Rail Authority, 
among many others, working closely with Rod Diridon and Bill 
Millar at APTA, with other organizations, represent a once-in-
a-century opportunity to make a real and positive impact on our 
country's transportation and economic development landscape. 
Let's be certain that we all have our eyes on the same prize: 
passenger trains traveling at--at least at 185 miles-an-hour or 
more, on a new, dedicated--as Mr. Boardman talked about--track 
system and high-speed rail infrastructure. If we have that 
separate infrastructure, we improve safety, reduce collisions, 
and improve economic benefits to the community.
    As we look to build this new system, it's important to 
remember that we are breaking new ground in this Nation. It 
would be wise to provide flexibility in the use of Federal 
funds to provide for market studies, and route engineering and 
environmental studies. In all of the projects I've been 
involved with at the local level, and it has primarily been 
traffic and toll revenue, we're the only county-run toll road 
system in the Nation that's over 500 miles, lane miles of 
system, we always built the projects ahead of schedule and 
under budget. But the key to being ahead of schedule and under 
budget was having the right schedule and the right budget, and 
doing the studies beforehand, so that we knew what we would be 
spending in the end.
    The market and environmental studies are important if we're 
to attract private investment, as well. And all of the 
discussions up until most recently have discussed private 
investment and public-private partnerships. There are places in 
the world where high-speed rail is at least covering its 
operational costs and making a profit for investment. There are 
place in America, too, where high-speed rail can also make 
sense for private investment. And to attract these investors we 
must show that the routes are viable and that the demand can 
cover cost.
    To encourage private investment we should offer tax-
exempt--additional tax-exempt private activity bonds, 
additional TIFIA funding, and other financial mechanisms that 
might be available from the Federal level.
    I also would encourage you that, as we look to different 
projects, we don't try to put in one formula for the entire 
country. Innovative project delivery systems are important. 
There are different needs in the Northeast Corridor, 
California, Illinois, and in Texas. In Texas, we have a linear-
airport kind of model, where--and again, Senator Hutchison's 
been very close working with us--that in every part of the 
country, whether it's a transit system, an airport, or a 
seaport, all of those are owned and operated by cities or 
counties. If you will give local governments the opportunity to 
connect our airports, our seaports, and our transportation--
metro transportation systems, we will, for the first time, 
breathe life into a truly viable interconnected mobility 
system.
    We are very grateful for the support of the 
Administration's vision for high-speed rail, and are encouraged 
by the size of the financial commitments under discussion for 
the next surface transportation bill. We're not working under 
the assumption that the Federal Government, or any State 
governments alone, are prepared to cover the cost of these 
projects for our country. I do think the Governor was--good 
comments about being able to sustain the systems that we build, 
but we believe that the cities and the counties have roles to 
play in that, and are coming together to try to make that work.
    We do have a local government corporation, and the capacity 
to bring that coalition together to help deliver this project 
in our State, and provide a service through our 440-mile Texas 
T-Bone Corridor that Senator Hutchison mentioned--it would 
bring 16 million Texans today living together, connect us along 
the Gulf Coast Corridor to New Orleans, Atlanta, and the East 
Coast, and on the South Central Corridor into Oklahoma City, to 
Little Rock and up into Memphis, and ultimately into the 
Midwest.
    This Texas project, while impressive in itself, will 
require a unique partnership of Federal, State, and local 
officials, as well as the private sector, and we would very 
much look forward to working with this Committee, and with FRA 
and Amtrak, to make that happen.
    So thank you very much for having us here, and I'm looking 
forward to questions.
    [The prepared statement of Mr. Eckels follows:]

          Prepared Statment of Hon. Robert Eckels, Chairman, 
          Texas High-Speed Rail and Transportation Corporation
    Good afternoon Chairman, Good afternoon Ranking Member Hutchison. 
Good afternoon Senators. It is an honor to be here this afternoon 
speaking before this distinguished group on something that I believe 
can and will transform transportation and mobility in the United 
States--and I know that I am by no means alone in this belief. High-
Speed intercity passenger rail, defined as 185 mile per hour and 
higher, as evidenced by the numerous examples around the world, 
provides to us the real and significant potential to reduce congestion 
in our crowded skies and highways, reduce carbon emissions, reduce our 
demand for foreign oil, create hundreds or thousands of jobs and 
stimulate and orchestrate economic development and growth across the 
country right now.
    I was not invited here, however to preach to the choir about high-
speed rail. You all are acutely aware of the enormous benefits that 
wise, prudent and progressive decisionmaking today will allow us to 
realize when High-Speed Passenger Rail is successfully developed across 
the country. I was invited here to discuss how close we are to seeing 
these benefits and what must be done to insure that we get to where we 
all want to be. The President and Secretary LaHood have made their 
vision clear: they want ``world class'' high-speed rail in this 
country. To reap the kinds of tremendous benefits outlined above, and 
to justify the incredible amount of Federal investment that has already 
begun and, if increased as recommended by Chairman Oberstar and Ranking 
Member Mika last week, we must set the bar incredibly high. This 
Country is ready for and must have truly fast and efficient passenger 
travel--trains capable of 185 miles per hour or more. When President 
Kennedy declared that this country would put a man on the Moon before 
the end of the 1960s, he knew that his bold, aggressive promise would 
require a new culture, a new mindset and ultimately a new 
administration, NASA, to become a reality. This is an example of which 
we must be mindful.
    Now please do not misunderstand me. I have confidence in the United 
State Department of Transportation and Secretary LaHood, and his 
colleagues in the Federal Railroad Administration. I have no doubt that 
the President has assembled a team, including Deputy Administrator, 
Karen Rae, whom I had the pleasure of visiting with a few weeks ago in 
Houston, that is more than capable of developing this system throughout 
the Nation. In order for America's, in the broadest sense of the term, 
``moonshot'' to become a reality, we--all of us--must work in concert 
with the same bold vision. We must consider this revolutionary 
initiative in the proper context, and recognize that the clear vision 
of this Administration and Congress, combined with the mounting public 
and private sector support for groups such as the Texas High-Speed Rail 
and Transportation Corporation, the California High-Speed Rail 
Authority and the Florida High-Speed Rail Authority, among many others 
working closely with Rod Diridon and Bill Millar at APTA, represents a 
once in a century opportunity to make a real and positive impact on 
this country's transportation and economic development landscape. Let's 
be certain that we all have our eyes set on the same prize--passenger 
trains traveling at least 185 miles per hour on new dedicated high-
speed rail infrastructure.
    As we look to build this system, it is important to remember that 
we are breaking new ground in America. It would be wise to provide 
flexibility in the use of Federal funds to provide market studies and 
route engineering and environmental studies.
     Market and environmental studies are important if we are to 
attract private investment. And every discussion of high-speed rail has 
included public private partnerships.
    There are places in the world where high-speed rail is at least 
covering its operational cost and making a profit for investors. There 
are places in America too, where high-speed rail can also make sense 
for private investment. To attract these investors we must show that 
the routes are viable and that demand can cover costs.
    To encourage private investment we could offer tax-exempt private-
activity bonds to provide lower financing costs for private passenger 
rail service providers.
    An additional challenge for interstate private investment in high-
speed rail is different tax treatments in multiple state and local 
jurisdictions. While taxes are not an issue on systems owned by state 
or local governments, Congress should consider the impact of local 
sales and property taxes on private high-speed rail infrastructure 
development.
    The Federal funding proposals should recognize as well that each 
state is different. The plan that works for the Northeast Corridor may 
not be the same as the model in California or Illinois.
    In Texas we have proposed a ``linear airport'' model. As you are 
all aware, other than military installations, every transit system, 
airport and seaport in this country is owned and operated by a city or 
county. Give local governments the opportunity to connect our airports, 
seaports, military reservations and transit systems. Do not allow 
Federal policy to prevent us from creating collector-distributor 
systems that will, for the first time, breathe life into the vision of 
a truly interconnected mobility system.
    We are grateful and supportive of the Administration's vision for 
high-speed rail and are encouraged by the size of the financial 
commitment under discussion for the next Surface Transportation Bill. 
We are not, however, working under the assumption that the Federal 
Government, or any of our State Governments are prepared to pay the 
entire cost for construction of high-speed rail in this country. We 
believe that, just as they have always done in aviation, transit and 
seaports, the Nation's cities and counties must play a powerful role in 
this important work and that attracting private-sector investment will 
be critical to the success of any high-speed rail system.
    In Texas that means a local government corporation, a creation of a 
coalition of cities and counties along the proposed high-speed 
corridors, which in partnership with the Texas Department of 
Transportation, is working to increase grassroots support and secure 
funds for market studies and right of way acquisition to construct the 
Texas ``T-Bone,'' a 440-mile corridor that will serve 16 million Texans 
and connect along the Gulf Coast Corridor to New Orleans, Atlanta on 
the East Coast and along the South Central Corridor to Oklahoma, Little 
Rock and Memphis.
    The Texas project alone will require a unique partnership of 
Federal, State and local officials with the private sector.
    To truly recognize America's vision for high-speed rail, I would 
encourage this body to set the bar high. Let us go fast, get there soon 
and get there together.
    Thank you.

    Senator Lautenberg. Ms. Fleming, we welcome you, and ask 
you to make your remarks now, please.

            STATEMENT OF SUSAN A. FLEMING, DIRECTOR,

                PHYSICAL INFRASTRUCTURE ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Fleming. Mr. Chairman, Ranking Member Thune, Ranking 
Member Hutchison, and Members of the Subcommittee, thank you 
for the opportunity to discuss high-speed intercity passenger 
rail and the American Recovery and Reinvestment Act.
    The $8 billion provided by the Act for high-speed and other 
intercity passenger rail projects have focused more attention 
on, and generated a great deal of anticipation about, the 
possibility of developing high-speed rail systems in the United 
States.
    My testimony has two parts: I will discuss the factors that 
we have identified that affect the economic viability of high-
speed rail projects, and how FRA's strategic plan incorporates 
these factors.
    First, while the potential benefits of high-speed rail 
projects are many, these projects are costly, take years to 
develop and build, and require substantial up-front public 
investment, as well as potentially long-term operating 
subsidies. Determining which, if any, high-speed rail projects 
may eventually be economically viable will rest on the factors 
such as ridership potential, costs, and public benefits. High-
speed rail is more likely to attract riders in densely and 
highly populated corridors, especially where there is 
congestion on existing transportation modes. Characteristics of 
the proposed service are also important, as high-speed rail 
attracts riders where it compares favorably to transportation 
alternatives, in terms of door-to-door trip times, frequency of 
service, reliability, safety, and price.
    Costs largely hinge on the availability of rail right-of-
way, land-use patterns, and a corridor's terrain. Once projects 
are deemed economically viable, project sponsors face the 
challenging task of securing the significant up-front 
investment for construction costs, and of sustaining public and 
political support and stakeholder consensus. We've found that, 
in other countries with high-speed rail systems, the central 
government generally funded the majority of up-front costs of 
high-speed rail lines. The $8 billion in Recovery Act funds for 
high-speed rail represents a significant increase in Federal 
funds available to develop new or enhanced intercity passenger 
rail service. This amount, however, represents only a small 
fraction of the estimated costs for starting or enhancing 
service on the 11 federally-authorized high-speed corridors.
    Furthermore, the challenge of sustaining public-sector 
support and stakeholder consensus is compounded by long project 
lead times, the diverse interests of numerous stakeholders, and 
the absence of an established framework for coordination and 
decisionmaking.
    Moving on to my second point: FRA's strategic plan attempts 
to address the absence of an institutional framework for 
investments in high-speed rail. In our recent report, we 
discuss the need for clear identification of expected outcomes, 
ensuring the reliability of ridership and other forecasts to 
determine the viability of high-speed rail, and including high-
speed rail with a reexamination of other Federal surface 
transportation programs to clarify Federal goals and roles, 
link funding to needs and performance, and reduce modal funding 
stovepipes.
    FRA's strategic plan is more a vision than a plan. For 
example, it does not define goals for investing in high-speed 
rail, how these investments will achieve them, and how the 
Federal Government will determine in which corridors it should 
invest.
    FRA views its strategic plan as a first step in planning 
Federal involvement. FRA has emphasized that it will involve 
stakeholders to help to flesh out its approach to developing 
high-speed rail that are under its control. FRA officials also 
told us that it plans to spend Recovery Act funds in ways that 
show success to help keep long-term political support for these 
projects at the local level.
    In conclusion, the infusion of up to $8 billion in Recovery 
Act funds is only a first step in developing potentially viable 
high-speed rail projects. The host of seemingly intractable 
issues, such as their high costs, uncertain ridership, and need 
for broad political support, that have hampered development of 
these projects, are still with us, and these issues will need 
to be resolved to effectively spend Recovery Act funds.
    Surmounting these challenges will require Federal, State, 
and other stakeholder leadership to champion the development of 
economically viable high-speed rail corridors, and the 
political will to carry them out. It will also require clear, 
specific policies and delineations of expected outcomes and 
realistic analysis of ridership, costs, and other factors, to 
determine the viability of projects and their transportation 
impact.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or other members of the 
Subcommittee might have.
    [The prepared statement of Ms. Fleming follows:]

      Prepared Statement of Susan A. Fleming, Director, Physical 
      Infrastructure Issues, U.S. Government Accountability Office
    Mr. Chairman, Ranking Member Thune, and Members of the 
Subcommittee:
    I am pleased to be here today to discuss the implementation of 
high-speed intercity passenger rail projects in the American Recovery 
and Reinvestment Act of 2009 (the Recovery Act). The $8 billion 
provided by the Recovery Act for high-speed and other intercity 
passenger rail projects has focused more attention on and generated a 
great deal of anticipation about the possibility of developing high-
speed rail systems in the United States. These projects are seen by 
some as serving an important transportation role, by moving people 
quickly and safely, reducing highway and airport congestion, and being 
environmentally friendly. My statement today focuses on: (1) the 
factors that we have identified that affect the economic viability of 
high-speed rail projects and (2) how the Federal Railroad 
Administration's (FRA) recent strategic plan incorporates those 
factors.\1\ My testimony is based on our recent report on high-speed 
rail, our review of FRA's strategic plan, and discussions with FRA and 
selected transportation experts.\2\
---------------------------------------------------------------------------
    \1\ By economically viable, we mean that a project's total social 
benefits offset or justify the project's total social costs.
    \2\ See GAO, High-Speed Passenger Rail: Future Development Will 
Depend on Addressing Financial and Other Challenges and Establishing a 
Clear Federal Role, GAO-09-317 (Washington D.C.: Mar. 19, 2009); and 
Federal Railroad Administration, Vision for High-Speed Rail in America 
(Washington D.C.: April 2009). We conducted this performance audit from 
May 2009 to June 2009 in accordance with generally accepted government 
auditing standards. These standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    In summary, we found that while the potential benefits of high-
speed rail projects are many, these projects--both here and abroad--are 
costly, take years to develop and build, and require substantial up-
front public investment, as well as potentially long-term operating 
subsidies. Determining which, if any, high-speed rail projects may 
eventually be economically viable will rest on factors such as 
ridership potential, costs, and public benefits. FRA largely agrees 
with our March report. FRA's strategic plan for high-speed rail 
outlines, in very general terms, how the Federal Government may invest 
the $8 billion in Recovery Act funds for high-speed rail development. 
However, this plan does not establish clear goals for the Federal 
Government in high-speed rail--other than establishing a ``longer term 
goal of developing a national high-speed intercity passenger rail 
network of corridors''--and does not define a clear Federal role for 
involvement in high-speed rail projects other than providing Recovery 
Act funds. As such, in our view, it is more a vision than a strategic 
plan. As part of a discussion to prepare for this hearing, FRA told us 
that it sees its strategic plan as a first step and that it intends to 
seek structured input from stakeholders and the public to help develop 
strategies to implement its vision.
Factors That Affect the Economic Viability of High-Speed Rail Projects
    The factors affecting the economic viability of high-speed rail 
projects include the level of expected ridership, costs, and public 
benefits (i.e., the benefits to non-riders and the Nation as a whole 
from such things as reduced congestion), which depend on a project's 
corridor and service characteristics. High-speed rail is more likely to 
attract riders in densely and highly populated corridors, especially 
where there is congestion on existing transportation modes (such as 
highways or airports). Characteristics of the proposed service are also 
a key consideration because high-speed rail is more likely to attract 
riders where it compares favorably to travel alternatives in terms of 
trip times, frequency of service, reliability, and safety. Costs 
largely hinge on the availability of rail right-of-way, and a 
corridor's terrain. To stay within financial or other constraints, 
project sponsors typically make trade-offs between cost and service 
characteristics.
    Once projects are deemed economically viable, project sponsors face 
the challenging tasks of securing the significant up-front investment 
for construction costs and of sustaining public and political support 
and stakeholder consensus. We found that in other countries (France, 
Japan, and Spain) with high-speed intercity passenger rail systems, the 
central government generally funded the majority of the up-front costs 
of high-speed rail lines.\3\ The $8 billion in Recovery Act funds for 
high-speed rail (and other intercity passenger rail) lines represents a 
significant increase in Federal funds available to develop new or 
enhanced intercity passenger rail service. This amount, however, 
represents only a small fraction of the estimated costs for starting or 
enhancing service on the 11 federally authorized high-speed rail 
corridors. For example, the San Francisco-Los Angeles portion of the 
California high-speed rail corridor alone, which already has about $9 
billion in state bonding authority, is estimated to cost about $33 
billion.\4\ Furthermore, Federal funds for high-speed rail in the past 
(as with the Recovery Act) have been derived from general revenues, not 
trust funds or other dedicated funding sources. This makes ongoing 
capital support for high-speed rail projects challenging, as they 
compete for funding with other national priorities such as health care, 
national defense, and support for ailing industries. In addition, the 
challenge of sustaining public-sector support and stakeholder consensus 
is compounded by long project lead times, the diverse interests of 
numerous stakeholders, and the absence of an established institutional 
framework for coordination and decisionmaking.
---------------------------------------------------------------------------
    \3\ GAO-09-317.
    \4\ The corridor would extend from Sacramento and San Francisco 
through Los Angeles to San Diego.
---------------------------------------------------------------------------
FRA's Strategic Plan Is a First Step
    FRA's strategic plan attempts to address the absence of an 
institutional framework for investments in high-speed intercity 
passenger rail service. In our recent report and in 2005,\5\ we 
discussed the need for:
---------------------------------------------------------------------------
    \5\ GAO-09-317 and GAO, 21st Century Challenges: Reexamining the 
Base of the Federal Government, GAO-05-325SP (Washington D.C.: February 
2005).

        1. Clear Federal objectives and clear roles for all 
        stakeholders (Federal, regional, state, and local governments 
---------------------------------------------------------------------------
        and freight, commuter, and passenger railroads).

        2. Clear identification of outcomes expected.

        3. Ensuring the reliability of ridership and other forecasts to 
        determine the viability of high-speed rail projects.

        4. Including high-speed rail with a reexamination of other 
        Federal surface transportation programs to clarify Federal 
        goals and roles, link funding to needs and performance, and 
        reduce modal stovepipes that hinder financing transportation 
        improvements that will lead to the greatest improvements in 
        mobility.

    FRA's plan, which the Recovery Act required the FRA to issue 60 
days after the Act was signed, outlines in very general terms how the 
FRA will allocate the Recovery Act high-speed rail funds. It does not 
define goals for investing in high-speed rail, how these investments 
will achieve them, how the Federal Government will determine which 
corridors it could invest in, or how high-speed rail investments could 
be evaluated against possible alternative modes in those corridors. In 
our opinion--and as FRA recognizes--this strategic plan is a first step 
in planning Federal involvement. FRA has emphasized that its approach 
is to involve the ultimate ``owners'' of high-speed rail--the states 
and communities in which they will reside--to help flesh out the 
approach to developing high-speed rail that are under its control. FRA 
officials also told us that it plans to spend Recovery Act funds in 
ways that show success to help keep long-term political support for 
these projects at the local level.
    Overall, FRA generally agrees with the issues that we raised in our 
March report, with the report's recommendations, and with the 
observations that we are making today. Last week, FRA took its next 
step by issuing interim guidance for applying for Recovery Act 
funds.\6\ The guidance lays out the evaluation criteria for grant 
funding, the weights to be applied to the criteria, and the selection 
criteria.
---------------------------------------------------------------------------
    \6\ A link to the guidance can be found in 74 Fed. Reg. 28770 
(2009).
---------------------------------------------------------------------------
    In conclusion, the infusion of up to $8 billion in Recovery Act 
funds is only a first step in developing potentially viable high-speed 
passenger rail projects. The host of seemingly intractable issues that 
have hampered development of these projects remain as challenges, and 
these issues will need to be resolved to effectively spend Recovery Act 
funds. Surmounting these challenges will require Federal, state, and 
other stakeholder leadership to champion the development of 
economically viable high-speed corridors and the political will to 
carry them out. It will also require clear, specific policies and 
delineations of expected outcomes, and objective, realistic analysis of 
ridership, costs, and other factors to determine the viability of 
projects and their transportation impact.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other Members of the 
Subcommittee may have.

    Senator Lautenberg. Thank you very much, Ms. Fleming.
    And now, Mr. Skancke, we welcome you and invite you to give 
your testimony.

           STATEMENT OF TOM R. SKANCKE, COMMISSIONER,

             NATIONAL SURFACE TRANSPORTATION POLICY

                  AND REVENUE STUDY COMMISSION

    Mr. Skancke. Thank you, Mr. Chairman.
    The tough part about being the caboose is that you cover a 
lot of track that the previous train has covered.
    [Laughter.]
    Mr. Skancke. Keeping in light with all the other----
    Senator Lautenberg. Get that mike a little closer, please.
    Mr. Skancke. Good afternoon, Chairman Lautenberg, Ranking 
Member Thune, and Members of the Committee. Thank you for 
allowing me to have the opportunity to testify today.
    In 2005, I was appointed to the National Surface 
Transportation Policy and Revenue Study Commission by Senate 
Majority Leader Harry Reid. In January 2008, after 2 years of 
meetings, hearings, and research, our Commission recommended to 
Congress a vision for transportation policy and funding in 
America, a new vision, which includes a framework that will 
reform, and hopefully revolutionize, the way we do 
transportation policy and funding for the next 50 years.
    One of our recommendations was substantive reform of our 
passenger rail system. Over the next half century, the United 
States is projected to add 150 million new residents, a 50-
percent increase over its current population. This increase 
will cause travel to grow at an even greater rate than the 
population will. We will need to provide new modal choices, 
which will require a cultural shift for the traveling public.
    We presented our report to Congress in January 2008. We 
recommended that the entire country should be connected by 
passenger rail by the year 2050. The recommendations also 
defined that the passenger rail corridors should connect 
population centers within 500 miles of each other.
    Just 11 months later, the GAO concluded that the existing 
intercity passenger rail system is in poor financial condition, 
and the current structure does not effectively target Federal 
funds to where they provide the greatest public benefit, such 
as transportation congestion relief. Corridor routes generally 
less than 500 miles in length have higher ridership, perform 
better financially, and appear to offer greater potential for 
public benefit.
    We also recommended to Congress that our Nation invest at 
least $8 billion per year over the next 50 years in passenger 
rail systems. President Obama, Senator Reid and this Congress 
realized that that investment in passenger rail is needed now, 
not over the next 50 years. So, $8 billion was put into the 
stimulus bill to, not only create jobs, but to kick-start the 
program to begin a valued new vision for America's 
transportation modes. I think this President, Senator Reid and 
this Congress have a vision for transportation in our Nation, 
and it is much like that of President Eisenhower, which is: 
connecting America.
    The United States is way behind the curve in passenger rail 
service, as we all know. The Far East, Near East, Europe, and 
the Middle East have been investing billions in passenger and 
freight rail systems for many years. Our lack of vision and 
investment is deteriorating our global competitiveness and our 
quality of life. The Nation's new vision should not just focus 
on existing passenger rail lines, but should expand beyond the 
current corridors.
    In my opinion, the vision should include a Western 
connection, much like the recommendation of our commission. 
Connecting all 22 Western States in phases, as a system, not as 
pieces, should be a priority. The first phase of a Western 
connection is currently being considered and underway, which is 
the Desert Express high-speed rail passenger corridor 
connecting Victorville, California to Las Vegas. This project 
will ultimately connect Victorville to Palmdale, California, 
thus tying into the California high-speed rail system from Los 
Angeles to San Francisco. This project will eventually connect 
three major Western metropolitan megaregions, each project 
meeting the criteria set out by our commission and the GAO for 
being corridors of 500 miles or less.
    This vision is one that takes leadership and courage to get 
it done. It can be done, and it should be done. I know, having 
grown up in Sioux Falls, South Dakota, it sure would have been 
nice to have taken a 40- or 60-minute train ride to Minneapolis 
for my Thanksgiving holidays or a Vikings game. But, instead I 
was stuck at home in a blizzard, because we had to travel by 
car.
    Yes, these systems will be costly to design, fund, and 
construct, but we can do this. This is the United States of 
America.
    Mr. Chairman, I have three policy changes for this 
Committee to consider in the new authorization. First, we must 
agree upon a bold new vision and make the cultural shift in the 
way we do transportation, a vision the American public can 
invest in, and believe in, and includes passenger rail that 
connects America, much like the Eisenhower Interstate Highway 
System did. We must do it today--we must do today what our 
parents and our grandparents did for us: invest in a new 
vision, reform the new program, and revolutionize the way we do 
transportation policy and funding.
    Second, we must reduce the time it takes to deliver a rail 
project in this country. Twenty years in new starts is just too 
long. We need to get our projects delivered in 3 to 5 years. 
This is not environmental streamlining, as some would like to 
call it. It's process delivery. Agencies cannot just sit on 
projects. We need to create--we do not need to create an 
oversight office, we just need to get the projects out. We 
don't need to open up the NEPA process to get this done, it can 
be done by reviewing duplicative services.
    Third, the system must be performance-based and outcome-
driven. Key performance measures for rail systems would include 
reliable, on-time performance, congestion mitigation, safety 
and environmental benefits, improved choices, mobility options 
for all communities, and reduced energy use. The systems need 
to be in their own rights-of-way, have a minimum amount of 
shared track in metropolitan areas, and on-time delivery for 
passenger predictability. It needs to be reliable, or the 
public won't use it.
    In closing, Albert Einstein once said, and I quote, 
``Without changing our patterns of thoughts, we will not be 
able to solve the problems we created with our current patterns 
of thoughts.'' So, let's change our patterns of thoughts so 
that we can solve the problems we created with our current 
patterns of thoughts.
    Mr. Chairman, you should be commended for having this 
hearing today to talk about high-speed passenger rail. Your 
leadership demonstrates that change is in Washington, D.C., and 
it is right here in this Committee. Passenger rail is the 
future for moving Americans, and now is the time to make that 
investment. We need to restore hope in performance and our 
transportation system. Our fellow citizens are counting on us 
to get it done.
    Thank you.
    [The prepared statement of Mr. Skancke follows:]

 Prepared Statement of Tom R. Skancke, Commissioner, National Surface 
           Transportation Policy and Revenue Study Commission
    Good afternoon, Chairman Lautenberg, Ranking Member Thune, and 
members of the Committee. For the record my name is Tom Skancke. In 
2005, I was appointed to the National Surface Transportation Policy and 
Revenue Study Commission (the Commission) by Senate Majority Leader 
Harry Reid.
    In January 2008, the Commission recommended to Congress a new 
vision for transportation policy and funding in America; a new vision 
which includes a framework that will reform our current transportation 
program which is obsolete.
    The Commission spent nearly two (2) years putting together a policy 
and funding framework for the next fifty (50) years for our Nation. 
That framework included substantive policy recommendations for both 
high-speed intercity passenger rail (HSICPR) and intercity passenger 
rail (ICPR) systems.
    The Commission agreed that the role of HSICPR and ICPR will need to 
be much more significant in the next 50 years as our Nation should 
offer more modal choices to our ever increasing mobile public.
    Over the next half-century, the U.S. is projected to add 150 
million new residents, a 50 percent increase over its current 
population. This increase will cause travel to grow at an even greater 
rate than the population will. This Nation cannot build our way out of 
this growth with more highway lane miles. We must offer our citizens 
other modal choices.
    Transportation planning, designing and constructing takes a great 
deal of vision. A vision is what President Eisenhower had in the 1950s 
when he created The Clay Commission. That commission made 
recommendations to the President and Congress as to how the United 
States would fund and build the Interstate Highway System we have 
today.
    In 1955, President Eisenhower stated and I quote, ``Our unity as a 
nation is sustained by the free communication of thought and by easy 
transportation of people and goods . . . Together the unifying forces 
of our communication and transportation systems are dynamic elements in 
the very name we bear--United States. Without them we would be a mere 
alliance of many separate parts.''
    Over the past 25 years, President Eisenhower's worst nightmare has 
occurred . . . our Nation has become an alliance of many separate parts 
when it comes to transportation infrastructure as it relates to moving 
our people across this great land. We have forced the American public 
into cars and have made them sit in hours of congestion. This 
congestion is costing our economy billions of dollars in lost time and 
production output. In addition to not offering American's modal choices 
we have not offered them a bold vision to invest in. Future generations 
are counting on us to get this right just like our grandparents and 
parents did for us.
    When our Commission presented our report to Congress in January 
2008, we recommended that the entire country should be connected by 
HSICPR by 2050. The recommendations also defined that the corridors 
should connect population centers within 500 miles of each other. Just 
11 months later, in November 2008, the federal Government 
Accountability Office (GAO) concluded that: ``The existing intercity 
passenger rail system is in poor financial condition and the current 
structure does not effectively target Federal funds to where they 
provide the greatest public benefits, such as transportation congestion 
relief. Routes of 750 miles or more, while providing service for some 
rural areas and connections between regions, show limited public 
benefits for dollars expended. These routes account for 15 percent of 
riders but 80 percent of financial losses. ``Corridor'' routes 
(generally less than 500 miles in length) have higher ridership, 
perform better financially, and appear to offer greater potential for 
public benefits.''
    Our Commission recommended to Congress that our Nation needs to 
invest at least $8 billion over the next 50 years in an HSICPR/ICPR 
systems for our Nation. President Obama and Senate Majority Leader 
Harry Reid (D-NV) realized that the investment in passenger rail 
systems is needed NOW not over the next 50 years. So $8 billion was put 
into the ARRA legislation to kick start the program and begin a valiant 
new vision for America's transportation modes. Here's a question for 
all of us to ponder. If a high-speed passenger rail system can be built 
in Europe and China . . . why can't a 21st Century passenger rail 
system be built in the United States? In my opinion, the U.S. should be 
the leaders in HSICPR not the followers.
    As you know, HSICPR is the preferred transportation mode in the Far 
East, Near East, Europe and now in the Middle East. Qatar and Kuwait 
are spending $10 billion each ($20 billion total) in the next 3-5 years 
on HSICPR. The United Arab Emirates (UAE) is spending twice that on 
bullet trains, monorails, HSICPR and major transit facilities 
throughout Dubai--the first of which is supposed to open in September 
of this year.
    China is spending hundreds of billions of dollars on HSICPR 
connecting the Far East to the Near East and ultimately, the Middle 
East. Further, China believes that an eventual connection to Europe is 
fundamental to establishing their future economic viability and 
sustainability. Should this vision become reality, Europe connecting to 
the Far East will give both regions a competitive economic advantage 
over the rest of the world. The U.S. will be second or third in the 
world. Is that what we want to be . . . second or third?
    The Nation's new vision should not just focus on existing passenger 
rail lines but should expand beyond the current corridors. The vision 
should include a western connection much like the recommendation of the 
Commission by connecting all 22 western states in phases. The first 
phase of a western connection is currently underway with the Desert 
Xpress high-speed rail project planned to connect Victorville, 
California to Las Vegas. This project will ultimately connect 
Victorville to Palmdale, California tying into the California high-
speed rail system from Los Angles to San Francisco, California. This is 
a connection that will ultimately connect three (3) major metropolitan 
mega regions. Each project meeting the criteria set out by the 
Commission and the GAO for being corridors of 500 or less.
    This vision is one that takes leadership and courage to get it done 
but it can be done and should be done. Yes it will be costly to design, 
fund and construct . . . but we can do this . . . we're the United 
States of America.
    To me, the role of HSICPR has been defined for many years. What we 
lack is a vision and the courage to tell our fellow Americans that 
we're going to make a cultural shift in how we offer choices in our 
transportation system. Continuing to force the driving public to sit in 
hours of congestion is just unacceptable and environmentally 
irresponsible.
    Reconnecting America with a new vision and new mode is what this 
Nation needs at this point in our history and staggering economy. We 
cannot wait.
    I recommend three policy changes that need to be made immediately.

        First is the amount of time it takes to deliver a transit or 
        rail project in our Nation. When we add one Federal dollar to 
        any transportation project in our Nation, we add 5-8 years to 
        the process. That is NOT just the environmental impact process, 
        that's the entire process. It's the duplicative reviews of 
        agencies, laws passed in the 1960s for a 20th Century economy, 
        a review process that has no performance measures and a broken 
        transportation program. A new starts project in this Nation 
        takes 15-20 years to deliver. This long drawn out process does 
        not give the U.S. a global competitive edge. A $1 billion 
        project today at the end of the 15 year process is $3-4 
        billions more costing the tax payers billions in waste. 
        Passenger rail and transit is proven to reduce highway 
        congestion and increase air quality. We are being 
        environmentally irresponsible when it takes 20 years to do a 
        rail project. This must be changed and it cannot be 
        compromised.

        Second, Congress must adobt a bold vision in order to convince 
        the American tax payer that high-speed rail is a mode of 
        transportation for our people. We cannot continue to set up our 
        current passenger rail systems to fail. We must build a new 
        system with a new vision. President Eisenhower had a vision for 
        the interstate highway system, President Obama has a vision for 
        high-speed passenger rail. As a nation, we must invest in 
        multi-modal options to compete globally and to improve each 
        American's quality of life.

        We must do today what our parents and grandparents did for us . 
        . . invest in a new vision, reform the current program and 
        revolutionize the way we do transportation policy and funding. 
        America is counting on us to do it. Eisenhower's vision in the 
        1950s got us to where we are today. That vision made us the 
        economic super power we have been. We must continue that 
        tradition.

        Third, we must create a performance-based outcome-driven 
        system. Key performance measures for the rail system would 
        include reliable on-time performance, congestion mitigation, 
        safety and environmental benefits improved choices, mobility 
        options for all communities and reduced energy use. The 
        passenger rail system would be based on a cost-benefit analysis 
        that includes both the user and non-user benefits of passenger 
        rail. The system needs to be in its own rights-of-way, minimum 
        amount of shared track in metropolitan areas, and on-time 
        delivery for passenger predictability. It needs to be reliable 
        or the public won't use it.

    Albert Einstein once said and I quote, ``Without changing our 
patterns of thoughts, we will not be able to solve the problems we 
created with our current patterns of thoughts.''
    So let's change our patterns of thought so that we can solve our 
problems we created with our current pattern of thoughts.
    Mr. Chairman, you should be commended for having this hearing today 
to talk about high-speed passenger rail. Passenger rail is the future 
for moving Americans and now is the time to make the investment. We 
need to restore hope in and performance in our transportation system.
    Our fellow citizens are counting on us.

    Senator Lautenberg. Thank you all very much for your 
excellent testimony.
    I think what we'll do is allow 6 minutes for each person.
    And I would ask Governor Rendell a question, and that is--
President Obama has made high-speed rail a priority. He started 
with $8 billion in the Recovery Act. The President also 
proposed a billion dollars for each of the next 5 years for 
high-speed rail. What sources of funding might Congress 
consider for these future high-speed rail investments?
    But before I ask you to answer, I would say, you've got to 
be a little cautious with suggesting the climate change money; 
we are working arduously to solve many problems, some of them 
more severe than others. Among them is our infrastructure, 
including the focus today on rail, but also on climate change, 
to make it possible for generations that follow to be able to 
breathe the air and conduct a healthy life. And one of the best 
things for climate change, as I think you've said, is high-
speed rail, efficient rail.
    So, what sources of funding might Congress consider for 
these future high-speed rail systems? And you said earlier, and 
I concur with you, that $13 billion is not a lot of money. When 
you think of the neglect that's taken place over the years, 
what we've invested in rail is pitiful by comparison. And to 
think of the needs addressed by rail, not only of more 
efficient operations and less importation of oil, et cetera, 
but the security needs for the country to be able to function 
in times of emergency.
    So, again, should passenger rail and the development of 
high-speed service receive dedicated Federal funding, like our 
interstate highway system, our aviation system? And that is 
really the first part of the question I ask.
    Governor Rendell. Well--there's a sportswriter in 
Philadelphia who writes a column once a month, and he entitles 
it, ``If I Were King of the World,'' and he delineates all the 
changes he would make in sports, professional sports. Well, if 
I were king of the world, we'd stop messing around. Every one 
of the G-7 nations has undertaken massive infrastructure repair 
programs. Japan and Germany, countries a fraction of our size, 
have spent over a trillion dollars, at one time, in a 5- to 10-
year infrastructure repair program.
    That's what we should be doing as a Nation. We should 
finance it through a capital budget, and we should change the 
way we score such financing mechanisms. It's the only way we're 
going to ever get this done. I mean, we're kidding ourselves. 
We're doing something to pat ourselves on the back, and 
saying--boy, I heard Secretary LaHood, who I think is terrific. 
He said, ``$13 billion is terrific, it's better than we've ever 
had--$13 billion is better than nothing.'' Well, sure it is, 
but it doesn't get us anywhere down the road.
    We can't do infrastructure on the cheap. We have to invest 
what we need to invest, and we have to find a way to do it. And 
we have to find the political courage to find a way to pay for 
it. I think a capital budget is long overdue. I testified----
    Senator Lautenberg. I agree with you.
    Governor Rendell. I testified as Mayor of Philadelphia----
    Senator Lautenberg. I ran a pretty-good-sized company, and 
I can tell you, that if----
    Governor Rendell. No company would ever----
    Senator Lautenberg.--we were operating on a cash basis, 
that would have been impossible.
    Governor Rendell. You wouldn't finance your capital needs 
out of operating costs. And we do. We finance building a bridge 
or a train system the same way we purchase paper clips in the 
Federal Government. It's nuts. It's time to change. It's time 
to change, and we'd better do it soon, because infrastructure 
is a lot like that Fram oil commercial, ``You can pay me now,'' 
and he holds up a filter--8.75--``or you can pay me later,'' 
and he points to the dilapidated car--$4,625. It's not getting 
cheaper. It's not getting cheaper.
    Senator Lautenberg. You and I are very much on the same 
page, and all we have to do is convince about 85 others here 
that we're doing the right thing there.
    Ms. Fleming, in your March 2009 report, you studied high-
speed rail service in France, Japan, and Spain. Each of these 
countries has committed significant government support for its 
high-speed rail system. Is it realistic to expect a high-speed 
passenger rail service to be successful without government 
contributing toward capital and/or operating expense?
    Ms. Fleming. What we found is that there was a real 
commitment and priority in France, Spain, and Japan. And the 
majority of up-front construction cost was borne by the Federal 
Government--the central governments in these countries--without 
the expectation that they would recoup these initial 
investments. And what most of these countries did was to build 
an initial trunk line in order to show success, and then built 
upon that. So, the commitment followed with investing 
significant amounts of money, and that model allowed them to 
begin initial construction relatively quickly.
    Senator Lautenberg. Thank you.
    I'd like to ask you a question, Mr. Boardman, and hope that 
we can get a quick response. My understanding is that foreign-
owned manufacturers of passenger cars, high-speed rail 
equipment are interested in competing for the $8 billion that 
is provided in the Recovery Act. What can we do to encourage 
more American companies to enter into the high-speed rail 
manufacturing market?
    Mr. Boardman. Mr. Chairman, I was encouraged yesterday to 
see that, in the field hearing that the TNI had, GE Locomotive 
provided testimony, where they are ready, they said, to build 
the next generation of diesel high-speed, and their definition 
was 110-124. They had their CEO, Lorenzo Simonelli, at the 
hearing in Pittsburgh, and so I think they are catching on to 
the fact that there is a commitment here in this country, and I 
think that's the most important part of that.
    Governor Rendell. And the Commonwealth's investing $7 
million in helping them build that technology, Senator.
    Senator Lautenberg. Thank you.
    I'm going to turn to my Ranking Member, here, Senator 
Thune, for you, sir, to ask your questions.
    Senator Thune. Thank you, Mr. Chairman.
    Governor, Senator Wyden and I have a proposal, called Build 
America Bonds, which I think is sort of geared at what you're 
talking about. It's a way of bonding for capital improvements. 
I agree entirely that the way that we budget around here defies 
any sort of common sense or, you know, rational basis for 
making these types of decisions. It's clearly not the way that 
these decisions would be made in the private sector, if you run 
a private business. And so, I appreciate your observations 
about that.
    And I would say to Mr. Skancke that if Brett Favre is 
playing for the Vikings next year, there are going to be a lot 
more people who want to get from Sioux Falls to Minneapolis----
    [Laughter.]
    Senator Thune.--and preferably quickly, and without having 
to drive through a blizzard.
    If I might direct a question to Mr. Szabo and Ms. Fleming, 
the main thought I guess I take away from the GAO's testimony 
is the problem with developing reliable projections for 
ridership and costs. The concern is that overly optimistic 
proponents are going to overestimate ridership and 
underestimate costs, and that if Federal Government makes 
investment decisions based upon faulty forecasts, we're going 
to fund projects that won't be successful.
    So, I guess the question--and maybe I direct this first to 
Mr. Szabo--is: How are you going to evaluate such projections 
for proposed projects, and are you going to use your own 
projections or rely on the project sponsor for those?
    Mr. Szabo. Well, first off, one of the key components that 
we will be ranking the applications on will be their proposed 
management plan and their management of risk, which includes 
covering all of the operating costs and any cost overruns. 
Those responsibilities belong to the applicant, not the Federal 
Government. So, clearly it's in their best interest to protect 
themselves, to ensure that those forecasts are accurate.
    One of the things that we plan to do is to use a template, 
where essentially applicants will provide the data to us, but 
we'll run that data through our own calculations to ensure 
that, as we compare the projects, we're getting an apples-to-
apples comparison. We believe that that will help ensure the 
integrity of the data, and help us make sure that we have 
accurate forecasts.
    Clearly, at FRA, we understand the fact that the projects 
that we choose are going to have to be successful. We 
understand that we cannot squander this opportunity, that if we 
are not, in fact, very careful about the projects we select, 
and ensuring the success of the projects that we select, if we 
fumble that ball, then there won't be a next generation on 
this. So, we understand the responsibility that we have, and 
we're prepared to take that challenge.
    Governor Rendell. Senator, could I add something quickly to 
that question?
    Senator Thune. Yes.
    Governor Rendell. One of the ways to ensure that you're 
getting accurate estimates is, if a State's recommending it, 
make the State chip in some money, so that they bear the risk 
as well. Amtrak and Pennsylvania shared the $145-million cost 
of the expansion of Philadelphia to Harrisburg.
    Senator Thune. That's a good suggestion, and one that we 
ought to, I think, take to heart when we start looking and 
evaluating these projects.
    Mr. Szabo. Senator, it is a part of our plan.
    Senator Thune. It is, OK.
    Let me ask Ms. Fleming, to follow up on that question, too. 
Do you believe there ought to be some outside neutral party 
that evaluates these forecasts, too?
    Ms. Fleming. Well, as you can imagine, ridership and other 
forecasts are key factors in determining whether a project or a 
system is going to be economically viable. And, unfortunately, 
results have shown that ridership tends to be overestimated, 
and costs tend to be underestimated. So, we feel that there are 
several ways to try to get at this issue to provide more 
reliable statistics.
    The first would be following Governor Rendell's idea to 
obligate the State and local governments to share some of the 
risks of underestimated costs for those projects where they're 
seeking Federal assistance. Another way would be to obtain 
estimates and forecasts from independent sources, sources 
without stake in the specific project that's being considered. 
And, last, making the forecast subject to peer review, and 
maybe even making the data publicly available. So, I think 
those three things would maybe better insure that the 
information would be more reliable.
    Senator Thune. Mr. Szabo, after we've spent $13 billion 
that's likely to be appropriated for high-speed rail over the 
next 5 years, do you expect the United States to have at least 
one corridor of substantial length that's served by a Japanese 
or European-style high-speed railroad?
    Mr. Szabo. I think it's important that, first off, we wait 
and see what is applied for. You know, obviously I can't start 
commenting on what we're going to do until applications come 
forward and are weighed, graded, and then approved. But, 
clearly, again, I think we understand the need to ensure that 
we have very tangible, very substantial successes. And 
clearly--again, our vision is to follow the model of what the 
Europeans have advanced. You know, keep in mind, when the 
system in Spain first opened up, Ms. Fleming talked about how 
essentially they began with one trunk line--they did, they 
began with their one trunk line, essentially it was six to 
eight trains a day, running about 125 miles-an-hour. And, from 
that, they were so successful that they incrementally made the 
improvements that got them to roughly 20 trains a day at speeds 
of 200 miles-an-hour.
    So, this is going to take a build-out. A build-out much 
like the construction of the Interstate Highway System. And, 
again, we need to understand--the TGV system in France today, 
if you ride from Paris to Strasbourg when you come out of 
Paris, you're doing approximately 200 miles-an-hour on 
dedicated right-of-way. But two-thirds along the way, you flow 
onto what they call traditional track, and you're doing speeds 
of about 125 miles-an-hour. So, it's not this either/or 
proposition.
    Senator Thune. Mr. Chairman, my time is expired, and I 
thank you all very much for your----
    Senator Lautenberg. I'm called elsewhere. Senator Udall is 
going to take over, and Senator Boxer will be next, Senator 
Hutchison, and then it's all up to Senator Udall, from New 
Mexico; he's going to fix the whole problem.
    [Laughter.]

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall [presiding]. Thank you, Mr. Chairman.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Senator Lautenberg, on your way out the 
door, I just want to thank you very much for this hearing, sir. 
High-speed rail is critical, it's just really critical.
    I want to pick up on Senator Thune's comment about the 
funding. Senator Thune, I just want to pick up on your points 
about the funding, because they're very critical.
    This $13 billion, standing alone, just can go so far, but 
in my State we had an election about putting a $9-billion 
funding package, and the people voted ``aye,'' which was kind 
of remarkable, given the latest votes that we had. So, you 
know, the people there really understand it. And our system, 
and--I bet most everybody in this room has been to my State--it 
will eventually connect Sacramento, our State capital, to San 
Diego in the south, but the first phase will be between Los 
Angeles and San Francisco and points in between.
    I also want to point out, the private sector has to be 
leveraged into this, too. In California we're working with the 
private sector. So, you take the $13 billion, and you add the 
$9 billion from my State, hopefully billions from other States, 
and hopefully billions from the private sector that you can get 
involved in it, and it starts to look like something on the 
scale--not quite what Governor Rendell wants, I don't think, 
because I think he even has a bigger plan, but I think you 
start to leverage, and you start to see some real things 
happening.
    And I wanted to just point out that our studies--and if I 
am saying something that has been disproven, let me know--show 
that our high-speed rail in California is projected to save 
12.7 million barrels of oil a year by 2030, and reduce 
CO<INF>2</INF> emissions by 12 billion pounds per year--
supposed to be 160,000 construction jobs, and literally they're 
saying, California, hundreds of thousands of permanent jobs by 
2035.
    So, I think, as we look at a lot of the problems facing us, 
this great recession, the CO<INF>2</INF> problem, the need to 
be energy independent, the need to make people feel comfortable 
getting out of their car, this seems to be one place.
    And so I have two questions. The first one--both of them, 
actually, are to Administrator Szabo. What is your long-term 
plan for development of high-speed rail, nationally? And, what 
factors do you consider the most important when it comes to 
funding? Will a State contribution bear some weight here?
    Mr. Szabo. Yes, in the guidance that we issued, that is one 
of the elements that, while not mandatory in most of the 
funding tracks that we provide, it certainly is something that 
is weighted, and certainly is something that is encouraged.
    Our vision, frankly, matches what they have done in Europe. 
And I think it's important to note--you can compare it a little 
bit to the road system, where you have local roads, you have 
county roads, you have State highways, you have U.S. highways, 
and you have an interstate system. And all play a very, very 
important role, and they all interconnect with each other to 
provide, hopefully, a first-class road system.
    Our approach will need to be the same on rail, just like it 
is in Europe. In Europe, in Japan, not every train is going 200 
miles-an-hour. Many of them are, but there continues to be a 
niche in the market for 110-mile service, there continues to be 
a niche in the market for traditional 79-mile-an-hour service--
--
    Senator Boxer. OK. But, my main point is, will State effort 
matter to you?
    Mr. Szabo. Absolutely.
    Senator Boxer. OK, that's my----
    Mr. Szabo. Absolutely.
    Senator Boxer.--point.
    Mr. Szabo. Critical element.
    Senator Boxer. OK.
    Mr. Szabo. Yes, absolutely.
    Senator Boxer. I said I had two questions, and I have 
three. That's one.
    The second one is to Mr. Skancke, who served as a 
Commissioner on the National Surface Transportation Policy and 
Revenue Study Commission. He has been very important in 
advising us, in the EPW committee, on how to proceed with the 
next highway bill, et cetera.
    And then I have the last question, to Mr. Szabo.
    So, Mr. Skancke, do you believe DOT has a realistic and 
workable plan to implement high-speed rail nationally? And, 
what steps must they take to ensure we have a sustainable 
system in the U.S.?
    Mr. Skancke. Senator Boxer, I don't think the Nation, as a 
whole, has a plan for high-speed rail. You know me very well to 
know that I'm very candid when I answer questions, so I'll try 
to be as be as candid as I can.
    Senator Boxer. Well, that's why I asked it.
    Mr. Skancke. I think our Nation lacks a vision on how we're 
going to move our American public out to 2050. It's why this 
Congress, in SAFETEA-LU, created the Transportation Commission. 
And, I think the way we get there is, we have to sell the 
American public, particularly on rail, as we get people out of 
their own horse and buggy, which we have forced them into, that 
it is a cultural shift.
    We have got to convince the American public that high-speed 
passenger rail is going to be predictable, that it's going to 
be on time, and it's going to be reliable. And we do that two 
ways. One, we just make the investment. We don't talk about 
what the program's going to look like, or how it's going to--
we've done that. We've studied corridors. We know what the 
alignment should look like. I believe that we just need to do 
it. We need to step up, fund it, find the funding mechanisms 
that are needed, and make the necessary investment.
    Senator Boxer. OK----
    Mr. Skancke. I think it's just that simple.
    Senator Boxer. So, my last question--you said, 
``predictable, reliable,'' and you had another word.
    Mr. Skancke. Dependable, I think is what I said.
    Senator Boxer. Predictable and reliable, but you didn't say 
safe, and of course you--it's obvious.
    Mr. Skancke. I--yes, obviously.
    Senator Boxer. Safe. It's got to be safe. So, my last 
question deals with this tragedy that just occurred on the 
Metroliner here.
    We just wrote a letter, Senator Rockefeller and I, to talk 
about the need to move forward with positive train control and 
other lifesaving measures, because we really are going to have 
to address this. This was awful, and we've seen these things 
happen in my State. So, my question to you, and my last 
question is, do you intend to move forward with positive train 
control, and do it quickly, so that we can let people know 
we're moving forward on the safety question?
    Mr. Skancke. Yes, absolutely. First off, we have a 
Congressional mandate to ensure that positive train control is 
implemented by the year 2015, and it's our intent to make sure 
that that deadline is met.
    Second, it's impossible to talk about high-speed rail 
without, at the same time, talking about positive train 
control. Again, you're using the European models, you know, 
they have their European train control, you can't have trains 
going 200 miles-an-hour----
    Senator Boxer. Right.
    Mr. Skancke.--if you don't have some element of positive 
train control.
    Senator Boxer. Right, but we got----
    Mr. Skancke. Fundamental.
    Senator Boxer. We've got to fix it for the ones we've got 
going now. So, I hope you'll move quicker than 2015. That was--
some places, I have to compromise, but I think it needs to be 
swifter than that.
    Thank you, so much, Mr. Chairman.
    Senator Udall. Thank you, Senator Boxer.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    Let me start with Judge Eckels, and just ask that--well, 
let me first state that I hope that there will be funding for 
projects other than those that are maybe further along than the 
Texas T-Bone. And, if you could apply right now for Federal 
funding in part of the stimulus, what would you ask for it to 
do?
    Mr. Eckels. Today, our biggest need is the market and 
route, environmental and engineering studies. Before we go on 
the ground with a system, we want to make sure it's a system 
that will be viable, will have the market that will support the 
system. Unlike the East Coast, we don't have regular service 
between Houston and Dallas today, and so, to develop one, we 
need to make sure that we are building a system which can be 
priced so that we an compete with the automobiles, with the 
aircraft, and also to keep an operational system.
    I do think bringing the discipline of the marketplace to 
the system can help set a fare schedule and a construction--you 
know, the technology that will make sense and will be viable 
for the long-term, for the State.
    Senator Hutchison. Let me ask Mr. Szabo--I'm looking at a 
map of the Amtrak system, with the high-speed corridors that 
have been designated, the 11 that have been designated, in the 
darker red. Is this the beginning of a planned system, that 
those are investments that are already being made? Do you favor 
the ones that are already in the Amtrak system being upgraded 
to high-speed, or are you looking at other factors like a new 
high-speed rail project that might feed into Amtrak, and 
therefore enhance Amtrak's capabilities?
    Mr. Szabo. One of the next steps that we absolutely must 
take is the development of a national rail plan. And, when I 
say that, I mean it from a most comprehensive standpoint. We 
have to understand how high-speed rail is going to overlay on 
traditional intercity rail, how commuter rail is going to 
overlay on top of that, and frankly, we have to understand how 
it's going to interact with the freight rail network. So there 
are all these components that need to be looked at to ensure 
that we have a comprehensive strategy when it comes to rail. 
You can't talk about high-speed rail without talking about the 
impact on freight rail.
    You know, that map is a document that happens to exist 
today, but certainly there's the need for a much bolder, 
clearer vision, and a national strategy on how to get there.
    Senator Hutchison. Have you ever talked, or even put on the 
table, with the Amtrak corridors that share freight rail 
lines--which make for problems of on-time service----
    Mr. Szabo. Yes.
    Senator Hutchison.--which then cause problems at the fare 
box--have you ever put on the table adding a line on the same 
corridor as the freight rail? Which, if you could get a 
reasonable deal, like maybe free use of that space in exchange 
for getting out of the freight-rail system, which would 
certainly benefit them, because they don't like dealing with 
Amtrak. Have you ever thought about trying to get a second rail 
on the same right-of-way as one of the ways for higher speed 
rail service in highly congested corridors?
    Mr. Szabo. Well, I think clearly there are multiple 
options. The key is that whatever we do--and, clearly, if we're 
going to have high-speed rail, true high-speed rail, it has to 
be on a dedicated corridor--but, whatever we do, we're going to 
have to ensure that we achieve a win-win relationship with the 
freight industry. We have an obligation to make sure that if 
the passenger trains are operating, that they're operating on 
time. Clearly reliability is a very critical component of 
ensuring a high quality passenger rail operation, and growing 
ridership.
    Senator Hutchison. Have you looked at having a separate 
track, though, to make that happen? I mean, you can talk about 
reliability, but in reality, at least on the Sunset Limited and 
the Texas Eagle, that I know so well, the experience has not 
been good.
    Mr. Szabo. Yes. I mean, again, any of these options can be 
considered.
    Senator Hutchison. Well, I would ask if, in the parameters 
of the spending of this stimulus money, if looking at those 
congested areas where you might be able to get a more 
streamlined service for high-speed rail, if a separate 
passenger line might be an option.
    Mr. Szabo. Certainly that could be a component that would 
be measured in a State's application to us. There are clear 
advantages to that, as far as reliability, which is one of the 
components. We measure safety, which is another one of the 
components we measure. So, again, if that was part of an 
application, it's a criterion that could be viewed very 
favorably.
    Senator Hutchison. So, a State effort is one criteria that 
would be very important for matching funds, and then, possibly, 
if you could ease congestion for better service and higher 
speed rail, that would also be a good factor.
    Mr. Szabo. That's right. Yes.
    Senator Hutchison. Judge Eckels, let me just ask you if--
obviously the Texas T-Bone is not going to be looking at an 
Amtrak route, but are there options on the Texas T-Bone that 
might provide dual rail with a freight line, or are you looking 
at a different all-new right-of-way?
    Mr. Eckels. Senator, in the very fast-track portion of the 
system--and again, as Mr. Szabo pointed out--Administrator 
Szabo--the system would have to have its own tracks. And, you 
know, we think the whole system should be a separate track 
anyway. But, as you described, within the urban corridors, 
particularly as we are working our way into the cities, on the 
Highway 290 corridor coming into Houston, or on the Hardy Toll 
Road Corridor in the north, we tie in and partner with the 
Harris County Toll Road Authority, the Texas Department of 
Transportation, Union Pacific Railroad, the Houston Harris 
County Metropolitan Transit Authority, the Metro service 
provider, then the high-speed rail and right-of-way, and can 
share a common corridor. And the idea, where it's appropriate, 
to lay a track adjacent to the freight railroads--and there are 
a number of places where that makes a lot of sense, 
particularly in those urban corridors, where you have a 
constricted right-of-way to get into the city through the dense 
population centers, it makes the most sense for us.
    As we move out, it depends on the demand that we get from 
the freight side for the increased capacity in the future. We 
have found them to be very reluctant to give up that right-of-
way, claiming that they need that for future development, and 
it's theirs. And so, it's a continuous problem. But, we think 
it makes great sense. We're not taking a lot of new right-of-
way. We'd like to consolidate as much as possible with TxDOT on 
their right-of-way, and with the rail lines, to the extent that 
we can meet the curvature requirements and the technical 
requirements.
    Senator Hutchison. Yes, I just think coming to some 
realistic terms with the freight rail carrier is going to be in 
everyone's interest, because they have a business to run, and 
you can understand their wanting to keep control of their 
tracks. That's why I think getting, sort of, separated out, 
where we can, but not having the huge expense of eminent 
domain, and those issues.
    Mr. Eckels. There are many places, Senator, where it's 
cheaper for us to relocate the freight rail, and buy them a new 
right-of-way and a new freight rail corridor, and new yards, 
and take over their right-of-way, than for us to go try to 
condemn a new right-of-way somewhere along the line. And there 
are places where that makes sense for the freight rail as well, 
and we're working on that in Texas.
    Senator Hutchison. Well, thank you very much.
    My time is up. But I appreciate all of your coming in and 
helping us get through this, because it is a very important new 
capability for America to have true multimodal planning for 
transportation.
    Thank you.
    Mr. Eckels. Thank you, Senator.
    Senator Udall. Thank you, Senator Hutchison.
    As Senator Boxer was leaving, she mentioned the letter 
between she and Senator Rockefeller, and asked that it be put 
as part of the record, that was the letter on the positive 
train control. If there's no objection, it will be ordered to 
be part of the official record.
    [The information referred to follows:]

                                       United States Senate
                                      Washington, DC, June 22, 2009
Hon. Patty Murray,
Chairman,
Transportation, Housing and Urban Development,
Appropriations Subcommittee,
Washington, DC.

Hon. Christopher Bond,
Ranking Member,
Transportation, Housing and Urban Development,
Appropriations Subcommittee,
Washington, DC.

Dear Madam Chairman Murray and Ranking Member Bond:

    We respectfully request that the railroad safety technology grants 
program authorized in the Rail Safety Improvement Act of 2008 (RSIA) 
(P.L. 110-432) be fully funded, at a minimum, in the Fiscal Year 2010 
(FY10) Transportation, Housing and Urban Development Appropriations 
bill. These grants were authorized at $50 million for FY10. This new 
program will provide critical funding for the implementation of 
positive train control and other necessary safety improvements.
    Last October, Congress passed the RSIA following the tragic 
collision of a commuter rail train and a freight train in Southern 
California that killed 25 people and left 138 injured. Based on the 
facts revealed in the National Transportation Safety Board's (NTSB) 
initial accident investigation, if positive train control had been 
installed on the tracks that are shared by commuter and freight rail 
trains, the accident could have been prevented. RSIA requires that 
positive train control be implemented on main lines where intercity 
passenger rail and commuter rail trains operate and over which poison- 
or toxic-by-inhalation hazardous materials are transported.
    More commuters are turning to commuter rail today than ever before. 
In these tough economic times, with many commuter rail agencies facing 
budget cuts, funding for the railroad safety technology grants is vital 
to ensure that important safety measures continue to be implemented.
    We cannot afford to delay the implementation of positive train 
control and other life saving safety measures on our Nation's busiest 
commuter-freight rail corridors. We respectfully request you fully fund 
the railroad safety technology grants for FY10, at a minimum, at the 
authorized amount. Thank you for your consideration of this important 
request.
            Sincerely,
                                             Barbara Boxer,
                                             United States Senator.
                                    John D. Rockefeller IV,
                                             United States Senator.

    Senator Udall. Governor Rendell, we appreciate your 
enthusiasm for capital budgets and also for high-speed rail. I 
can see you're obviously a very knowledgeable supporter of 
these.
    I wish, in a way, we could get the same kind of enthusiasm 
in the West. One of my questions here was, you know, why no 
high-speed rail corridor in the Southwest? We have good-sized 
population centers in El Paso, Albuquerque, and Denver. As I 
look at the map, here, it looks like that would make sense. And 
so I'm wondering--we've authorized 11 high-speed rail 
corridors, yet the Department of Transportation has only 
designated ten. I hope you're reserving that last one for the 
Southwest. But, could you----
    [Laughter.]
    Senator Udall.--can you tell me a little bit of the 
thinking on the 11th, and where you are, what your thoughts are 
on an El Paso-Albuquerque-Denver corridor?
    Mr. Szabo. I'm assuming that's to me.
    Senator Udall. Yes. Yes, it is, Mr. Szabo.
    Mr. Szabo. Frankly, there's no position to announce, at 
this time, relative to any 11th high-speed rail corridor, but 
the important news is, is that it's not necessary in order to 
be an applicant under the grant guidance that we've issued.
    I think most of this gets addressed, again, as we start 
taking a look at a national rail plan. Quite frankly, it's 
possible that there's the need for more than 11. We need to 
take a look at, where are those markets, and where there is 
good potential? What is the interest from those States? And, 
historically, there has not been a strong interest from the 
Southwest, but it sounds like the level of enthusiasm, quite 
frankly, nationwide, is changing considerably.
    So, I think the issues of whether there's an 11th corridor, 
a 12th corridor, a 13th, whatever, will get fleshed out as we 
put together a national rail plan.
    Governor Rendell. Senator, could I take a shot at that?
    Senator Udall. Yes, please, Governor Rendell.
    Governor Rendell. I think the way this is going to happen, 
is to do it. I think that's what Mr. Skancke said. And it's up 
to Congress and the President to find the funding to do this in 
scale. And the States and local governments should chip in.
    But, I think it comes incrementally. So, for example, if I 
could--and I've thought and thought, and I've had Wall Street 
people in to try to see how I could finance high-speed rail 
from Philadelphia to Pittsburgh, 200-mile-an-hour rail. Because 
if we built that, there's no doubt in my mind that the Acela 
would then be 200 miles-an-hour, and then from Pittsburgh into 
Detroit and Chicago, it would come.
    So, the Texas T-Bone may be your best shot. If they can 
build the Texas T-Bone, and prove that it works, then how tough 
is it to take it--I don't know if the El Paso's on----
    Mr. Eckels. El Paso's not, but, Senator, the--El Paso is 
one of our strongest supporters in Texas in high-speed rail, 
not that they expect to see the 900 miles from Houston to El 
Paso built as a high-speed line; it's longer that we think 
works on these kinds of systems. But, it's the line from El 
Paso to Albuquerque to Denver, that you talked about, and they 
see that as a real possibility. And they see the proof in the 
system on the T-Bone, the Houston-Dallas, to be the next step 
that would then provide the capacity to move forward and build 
the El Paso route to Albuquerque and on to other points in the 
West.
    Senator Udall. Yes. Well, the--one of the things that's 
been fascinating in New Mexico--Governor Richardson stepped up 
and did the commuter rail, and there were a lot of doubts. An 
earlier Governor had talked about doing it, and it was 
ridiculed by the press, but he stepped up and did it, and on 
time, on schedule. And it has been going about 9 months, now. 
It has passed the two-millionth passenger, and in a very short 
period of time. And one of you, I think it was Mr. Skancke, 
mentioned reliable--you used the term ``reliable ridership,'' 
and ``predictions.'' I don't think anybody would have 
predicted, in New Mexico.
    Now, granted, this is the same period where we hit the $4 
gasoline. And we're a terribly rural State, and people are 
known to travel 120, 150 miles a day to work, just to commute. 
But, it sounds a little bit like, Governor Rendell, you know, 
``You build it and the people are going to come.'' I think, 
looking at our energy future--I don't know if any of you have 
any comments on that, but--it may be very hard to predict what 
reliable ridership is, right now.
    Please, Governor Rendell.
    Governor Rendell. If OMB, CBO, and the GAO were predicting 
the success of Columbus's venture, if they were advising Queen 
Isabella, we'd all be speaking Italian.
    [Laughter.]
    Governor Rendell. I guarantee you. You've got it--you hit 
it right on the head, Senator. Some of this, we've got to do 
because, (a) we know it works in other parts of the world, and 
some of this we've got to do on faith.
    When I invested the $74 million of Commonwealth money--
that's not a lot of money down here; as Vice President Mondale 
once said, we spend that sum of money before breakfast in 
Washington--but for the Commonwealth that's still a nice hunk 
of change. I wasn't sure--there wasn't any study that said we 
were going to jump up ridership that much, but I just--I knew 
we had to try. This was our best shot--if you look at the 
topography of Pennsylvania--this was our best shot to prove 
that there was a market for high-speed rail. And it worked. And 
it worked.
    So, sometimes you just have to--as Mr. Skancke said, you 
just have to do it.
    Mr. Eckels. Senator, in the Texas/New Mexico connection 
there, it's not just about the train system. We've spent a lot 
of time up here talking about moving passengers, but it's also 
about the transit-oriented development and the induced demand 
and the additional economic activity that comes in that 
megopolis that we refer to in these urban areas, that would 
grow as a result of that infrastructure being in place, and 
that is one of those things that's hard to measure until it's 
in place.
    Senator Udall. Mr. Skancke, did you want to talk about----
    Mr. Skancke. Thank you, Senator.
    Senator Udall.--reliable ridership issue, or comment on 
this?
    Mr. Skancke. I think we have studied ridership in this 
country for hundreds of millions of dollars. I didn't say 
years--hundreds of millions of dollars. And as I've said, it--
we have to stop studying. We know, on all of the Amtrak 
corridors throughout the country, that there is a need and a 
demand. And as fuel prices go up, ridership goes up. As 
congestion goes up, ridership goes up. We don't have to guess.
    The problem that we have is we're afraid to do it, because 
it may fail. What we need to do is not set up our high-speed 
rail and transit systems to fail. Let's set them up to succeed. 
Create systems that work. Not pieces. So, as we've all said, 
instead of doing 100-mile segments, let's try a 500-mile 
segment. Let's actually--I'll be a little partisan for a 
second--let's build a line from Los Angeles to Las Vegas. Let's 
build a line from Phoenix to Las Vegas. Let's go from 
Albuquerque to Denver. Let's try it. What do we have to lose? 
Nothing. If we fail, then we fail. But we don't even know what 
failure is yet, because we haven't gotten there.
    Mr. Boardman. Senator Udall, Joe Boardman from Amtrak.
    As the good Governor was saying to me, ``Who was that guy 
there that built our 110-miles-an-hour service?'' I said, David 
Gunn, he was the--it's the only good thing he did for Amtrak.
    [Laughter.]
    Mr. Boardman. But, that's not true, and I want to say that 
because David and I are friends, and I talked to him a couple 
of days ago, and I accused him of using the money from the 
turbo project in New York to get that done. But--I know he had, 
also, Pennsylvania money.
    I think what Tom is talking about is absolutely true, with 
an exception. And that is, that the culture in this country is 
not a train-riding culture. In the Northeast Corridor, about 43 
million people live within about 40 miles of where we operate 
Acela. Acela is a success. In 2000, we had--about 37 percent--
this was before Acela started--of the air-rail market was with 
rail. Today, in 2008, we have just the opposite of that. We 
have 63 percent of the rail-air market, and that's with service 
that's 2 hours and 45 minutes from New York to Washington.
    And on the north end, from New York to Boston, it was at 
about 20 percent, and is now--or 22 percent--it's now at about 
49 percent in the same way.
    So, we are demonstrating success. But the piece that we 
can't miss, and I think Administrator Szabo really pointed it 
out, is that we need to do both. We need to talk about having 
very high speed, and it needs to connect--T-Bone needs to--and 
I listened carefully, Judge; I didn't hear it connecting to 
Amtrak--and it might. But Amtrak is the only connected, 
intercity service, coast to coast, border to border, in the 
United States. And we need the incremental improvements to the 
90-to-110, so that people build a culture of riding the train, 
so they fill up the high-speed trains that are connected in 
some fashion--and it might even be at an airport--but it could 
be somewhere else--where you connect our system. People want to 
be seamless. They don't want to go to the border of 
Pennsylvania and New York on Route 15--when we had to build 
that Presho connection, if you remember, Governor, to make sure 
that New York kept up with the leadership that was coming out 
of Pennsylvania to make that interstate connection. And that's 
the difficulty we have today with railroads; we don't always 
connect.
    Mr. Eckels. Well, Senator, if I may clarify with Mr. 
Boardman, that the--of Amtrak--Texas T-Bone does connect into 
the--sorry--the Texas T-Bone will connect into the Amtrak 
Houston-Metro multimodal facility in downtown Houston.
    Senator Udall. Great. Well, that's a good--a good way to 
finish.
    And we very much appreciate this panel. It's very 
informative. And thank you very much.
    And I will adjourn.
    Thank you.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                       to Hon. Edward G. Rendell
    Question. As the Federal Railroad Administration noted in its 
strategic plan, some States lack the financial resources to make 
capital investments or take on potential rail operational expenses. 
What can states do to leverage Federal dollars to invest in high-speed 
rail?
    Answer. The FRA strategic plan that you cited mentions that ``while 
other modes have historically benefited from dedicated Federal funding 
for infrastructure investment, rail has had no such Federal capital 
matching source,'' (page 6). As such, the short answer to your question 
is that the Federal Government must commit substantial resources to 
rail on a reliable, predictable, and annual basis. The State Grant 
Program established by the FY 2008 Appropriations act provided only $30 
million to states, subject to a 50-percent non-Federal match, which was 
hardly a ``capital investment program'' when you consider that a single 
corridor anywhere in the United States has a price tag of over $1 
billion. Despite this, several states are ready and willing to start 
leveraging Federal dollars and are already actively developing high-
speed rail initiatives. California and many of the Midwestern states 
are particularly well organized. These and other states are looking for 
meaningful partnerships with the Federal Government and understand for 
that to happen there must be a financial contribution to the costs of 
projects within their borders.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Edward G. Rendell
    Question. Transportation options are limited in many rural areas, a 
problem compounded when Amtrak was forced to cut back services because 
of underfunding. How can intercity passenger rail be better utilized to 
connect rural America?
    Answer. Unfortunately, developing an intercity passenger rail 
network is not an economically viable option in all states. A key 
component of allowing rural areas to benefit from present and future 
intercity passenger rail will be intercity bus networks. These networks 
will not only provide intermodal connections to intercity passenger 
rail, but also to key commercial and recreational centers. Federal 
funds were made available to intercity bus for the first time with 
ISTEA in 1991.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Edward G. Rendell
    Question 1. The New Mexico Rail Runner, a new rail line from Belen 
to Santa Fe, just celebrated its 2 millionth rider since it opened a 
few years ago. It is a comfortable and efficient way to travel that 
gets people out of their cars and off our congested highways. The 
success of the Rail Runner has revived interest in passenger rail in my 
state. Yet New Mexico, like every other state, relies first and 
foremost on roads for transportation. Across the country, only a 
handful of states seem to have passenger rail initiatives as part of 
their long term transportation planning. How can Congress and the 
Department of Transportation encourage state governments to consider 
passenger rail options for cases when traveling by train would make 
more sense than driving or flying?
    Answer. As I stated in my testimony, high-speed rail will compete 
with and relieve congestion from existing modes and enhance the 
Nation's economic competitiveness. The most common modes for travel in 
the 100-miles and above range--highways and airports--are stretched 
beyond capacity in many parts of the country. With regard to relieving 
aviation congestion, it has been well documented that the severe 
congestion at New York area airports--JFK, LaGuardia and Newark--create 
a ripple effect of congestion at other airports across the country. If 
we can solve the congestion problem at these airports by providing a 
high-speed rail alternative along the Northeast Corridor, for example, 
we could end air travel of less than 500 miles. The shuttle would no 
longer be able to compete and those airport slots would be freed up and 
air traffic reduced. This is just one example. This scenario could be 
replicated in many other parts of the country which are struggling with 
high levels of congestion both on the roadways and in the air.

    Question 2. Would Federal funding to support a dedicated rail 
transportation coordinator in each state Department of Transportation 
be a cost-efficient means of improving institutional expertise and 
capacity building at the state level for promoting passenger rail?
    Answer. The main issue facing state DOTs may not be the lack of a 
top-level coordinator, but the loss of several experts at all angles of 
rail planning, operations and management. The Federal Railroad 
Administration's strategic plan states that ``the relatively small 
investment in passenger rail in recent decades and growing retirements 
of personnel throughout the rail sector have resulted in a shrinking 
pool of experts in the field, including engineers skilled in signal, 
track, and rolling stock design, along with experienced rail planners 
and managers.'' Efforts would be better spent effectively marketing 
careers in transportation and rail to young people to replace the loss 
of retiring professionals.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                         Hon. Edward G. Rendell
    Question. The development of high-speed rail projects is going to 
require coordination among many stakeholders, including Federal, state, 
and local governments, Amtrak, the host freight railroads, and others. 
What is the best way to effectively coordinate among all of these 
stakeholders? How do we encourage investment, from both state 
government and the private sector, in high-speed rail? How do you 
believe the Federal Government can best promote sound investment in 
viable high-speed rail projects?
    Answer. For governmental and non-governmental entities to be able 
to coordinate effectively, the Federal Government must first develop a 
national strategic plan for high-speed rail that articulates specific 
performance and accountability measures, and ties those measures to 
funding. FRA Administrator Joe Szabo has said that such a plan will be 
completed by the U.S. Department of Transportation in mid-October of 
this year.
    Even as we await such a crucial plan, Governors across the country 
have already taken the initiative to ensure public and stakeholder 
support. Governor Chet Culver, for example, kicked off a whistle-stop 
tour in late June to promote high-speed rail between Des Moines and 
Chicago. He will be meeting with Governor Pat Quinn shortly thereafter 
to coordinate efforts. California has also been particularly active in 
moving forward with its own plans for high-speed rail. States 
understand that in order for these plans to move forward there has to 
be a financial contribution to the costs of projects within their 
borders. They are ready to engage and await Federal leadership to begin 
making these plans a reality.
    While the development of a national high-speed rail system will 
require investments from the Federal and state levels, we must also 
explore a role for private investment. Historically, rail projects have 
been heavily subsidized by governments both in the U.S. and abroad. As 
such, it may be more of a challenge to attract private capital to a 
high-speed rail system, but we can learn from the experiences of other 
countries.
    Government will first have to cover significant upfront capital 
construction costs. After such upfront investment, there are a variety 
of ways to then engage the private sector. In the case of Japan, the 
government sold four high-speed rail lines to private companies in 
1991, and subsequent lines were built by the government using the 
revenues derived from this sale. In addition, the sale freed the 
national government from having to provide operating subsidies.
    Overall, a sound Federal investment is one that focuses on service 
at 150 mph and above, since this is the type of service that is truly 
able to compete with and relieve congestion from existing modes.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                         Hon. Edward G. Rendell
    Question. What role do you believe high-speed rail can play in 
meeting this country's future transportation needs? What do you believe 
the states' role is in advancing high-speed rail?
    Answer. High-speed rail will compete with and relieve congestion 
from existing modes and enhance the Nation's economic competitiveness. 
The most common modes for travel in the 100-mile and above range, 
highways and airports, are stretched beyond capacity in many parts of 
the country. Consider that 2007 represented the second worst year on 
record for flight delays and cancellations. In addition, Americans lose 
a total of 4.2 billion hours in traffic congestion, wasting 2.9 billion 
gallons of fuel and $78.2 billion each year. This results in lost 
productivity, less time with family and friends and negatively impacts 
our quality of life.
    With regard to relieving aviation congestion, it has been well 
documented that the severe congestion at New York area airports--JFK, 
LaGuardia and Newark--create a ripple effect of congestion at other 
airports across the country. If we can solve the congestion problem at 
these airports by providing a high-speed rail alternative along the 
Northeast Corridor, for example, we could end air travel of less than 
500 miles. The shuttle would no longer be able to compete and those 
airport slots would be freed up and air traffic reduced. This is just 
one example. This scenario could be replicated in many other parts of 
the country which are struggling with high levels of congestion both on 
the roadways and in the air.
    As for the states' role in advancing high-speed rail, many have 
already begun to do so. California and many of the Midwestern states 
are particularly well organized. These and other states are looking for 
meaningful partnerships with the Federal Government as well as with the 
railroads to begin to move forward with the development of the 
designated high-speed rail corridors. States understand that in order 
for these plans to move forward there has to be a financial 
contribution to the costs of projects within their borders.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Joseph C. Szabo
    Question. How can you encourage equipment manufacturers to produce 
more energy efficient locomotives to help further meet the goals 
included in the Federal Surface Transportation Policy and Planning Act 
of 2009? Through the distribution of the $8 billion provided in the 
American Recovery and Reinvestment Act, how can you encourage the 
states to invest in expansion passenger rail service to help meet these 
goals?
    Answer. Section 305 of the Passenger Rail Investment and 
Improvement Act of 2008 (PRIIA) called for Amtrak to establish a 
committee to design, develop specifications for, and procure a 
standardized next-generation rail corridor equipment pool. This Next 
Generation Corridor Equipment Pool Committee will be comprised of 
representatives from Amtrak, the Federal Railroad Administration, host 
freight railroad companies, passenger railroad equipment manufacturers, 
interested States, and, as appropriate, other passenger railroad 
operators. The equipment committee will need to take into account the 
energy efficiency and environmental quality of locomotives and all rail 
equipment developed.
    Rail is already among the cleanest and most energy-efficient of the 
passenger transportation modes. Expansion of rail service, combined 
with efficiency improvements and consumption reductions in other modes, 
will help to contribute to the goals of the Federal Surface 
Transportation Policy and Planning Act of 2009, such as reducing 
national surface transportation-generated carbon dioxide levels by 40 
percent by 2030. According to a study by the U.S. Department of Energy, 
implementation of pending plans for the ten federally-designated high-
speed rail corridors could result in an annual reduction of 6 billion 
pounds of carbon dioxide. The overwhelming response in pre-applications 
to the HSIPR Program--278 pre-applications totaling over $103 billion 
in projects--indicate that states recognize the opportunity to 
transform the country's transportation system and foster energy 
independence and efficiency through the expansion of passenger rail 
service.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Joseph C. Szabo
    Question 1. The Passenger Rail Investment and Improvement Act of 
2008 (P.L. 110-432) requires Amtrak and the Federal Railroad 
Administration to develop standards for measuring the performance and 
service quality of Amtrak's operations. These were due to be completed 
in April, but have not been completed yet. When can we expect that they 
will be completed?
    Answer. The Federal Railroad Administration (FRA) issued a 
``provisional staff draft'' of the proposed metrics and standards (in 
conjunction with Amtrak) on March 13, 2009. The draft made clear that 
it was ``subject to subsequent review and revision by appointed policy-
makers in the U.S. Department of Transportation.'' We received complex 
and substantive comments from stakeholders regarding the provisional 
staff draft. Subsequent to the enactment of the mandate for metrics and 
standards (in the Passenger Rail Investment and Improvement Act of 
2008), the Congress passed the Recovery Act legislation requiring us to 
complete a strategic plan and detailed guidance for the States for 
creating an $8 billion grant program for passenger rail investment. In 
view of all these developments, we have chosen to defer publication of 
final metrics and standards until we can give appropriate review and 
consideration to the docket comments, and provide an opportunity for 
our new political leadership to assess the proposal and its policy 
implications, particularly in light of the altered landscape created by 
the Recovery Act and the new Federal approach to intercity passenger 
rail. To date and to our knowledge, no party has petitioned the STB for 
an arbitrator under section 207(d) of PRIIA.

    Question 2. Transportation options are limited in many rural areas, 
a problem compounded when Amtrak was forced to cut back services 
because of underfunding. How can intercity passenger rail be better 
utilized to connect rural America?
    Answer. Although high-speed rail is often viewed in the context of 
connecting major population centers, intercity passenger rail can also 
provide benefits in connecting rural communities across the country. 
The development of such services is dependent upon state and Amtrak 
plans for intercity passenger rail, which will be driven by a multitude 
of financial and policy considerations unique to each potential 
service.
    The application evaluation criteria for FRA's High-Speed Intercity 
Passenger Rail (HSIPR) Program will take into consideration a proposed 
project's or service's accessibility and interconnectivity. 
Additionally, there are a series of selection criteria that the FRA 
Administrator will apply to ensure a balanced national program, 
including an appropriate distribution of project's benefiting large and 
small population centers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Joseph C. Szabo
    Question 1. Congress authorized up to 11 high-speed rail corridors. 
Yet the Department of Transportation has designated only 10 such 
corridors to date. The Southwest is notably left off the map in the 
Obama Administration's ``Vision for High-Speed Rail'' document. Why is 
there no 11th high-speed rail corridor?
    Answer. Of the 10 designated high-speed rail corridors, three were 
specifically named by Congress in law. Seven corridors were selected by 
the Secretary of Transportation through a competitive process, which in 
current law involves an evaluation of such factors as projected 
ridership, public benefits, and anticipated partnership participation 
of States, localities, and the freight railroads. The Secretary of 
Transportation will determine whether to designate the one remaining 
authorized slot for a stand-alone high-speed rail corridor.

    Question 1a. Why does the Southwest region not have a high-speed 
rail corridor?
    Answer. The Southwestern states did not apply for designation 
during the merit-based competition that occurred in the year 2000 and 
that was announced in the Federal Register.

    Question 2. The stimulus package provided a significant ``down 
payment'' investment in high-speed rail yet relatively little Federal 
grant money is available for states to conduct feasibility studies or 
other planning for future high-speed rail initiatives. How will the 
Federal Railroad Administration help states seeking Federal assistance 
for passenger rail planning?
    Answer. During May and June, the Federal Railroad Administration 
(FRA) held a series of outreach meetings with states and other rail 
stakeholders on the development of the High-Speed Intercity Passenger 
Rail (HSIPR) Program guidance. The issue of the importance of planning 
to the long-term success of the HSIPR Program, along with the limited 
funding available for such activities under existing FY09/FY08 
appropriations, was a topic raised during each session.
    The President's FY10 Budget Request proposes to make funding 
available for eligible rail planning purposes, including design, 
environmental studies and incorporating corridor plans into State rail 
plans. These activities are necessary in order to advance corridor 
plans to the stage where their proposed investments can be objectively 
evaluated based on merit.
    While an increase in dedicated Federal rail planning funds will 
ultimately depend on appropriations from Congress, FRA's implementation 
schedule for the HSIPR Program is intended to help facilitate planning 
to the maximum extent possible. FRA envisions holding two rounds of 
application solicitations under the HSIPR Program. The first round will 
take place in August and October. Although the Recovery Act does not 
provide funds for planning, FRA created a funding track under the HSIPR 
Program to incorporate the $9.54 million made available for planning 
under FY09 and remaining FY08 annual appropriations. FRA anticipates 
awarding these planning funds during the first round of applications.
    With any Recovery Act funding remaining after the first round of 
solicitations, FRA plans to hold a second round of application 
solicitations in 2010. The time-frame between the first and second 
rounds will allow applicants to utilize the FY09/FY08 planning funds 
awarded during the first round of solicitations, as well as their own 
resources, to prepare projects for consideration during the second 
round of solicitations.

    Question 3. The New Mexico Rail Runner, a new rail line from Belen 
to Santa Fe, just celebrated its 2 millionth rider since it opened a 
few years ago. It is a comfortable and efficient way to travel that 
gets people out of their cars and off our congested highways. The 
success of the Rail Runner has revived interest in passenger rail in my 
state. Yet New Mexico, like every other state, relies first and 
foremost on roads for transportation. Across the country, only a 
handful of states seem to have passenger rail initiatives as part of 
their long-term transportation planning. How can Congress and the 
Department of Transportation encourage state governments to consider 
passenger rail options for cases when traveling by train would make 
more sense than driving or flying?
    Answer. Judging from the overwhelming pre-application response to 
the HSIPR Program, states are very seriously considering intercity 
passenger rail as an alternative and addition to existing 
transportation modes. FRA received 278 pre-applications for the HSIPR 
Program, totaling more than $103 billion in projects, from 40 states 
and the District of Columbia. States, and more importantly travelers, 
will select rail as their transportation mode of choice when rail is 
demonstrated to be competitive in terms of both cost and trip time with 
transportation alternatives.

    Question 3a. Would Federal funding to support a dedicated rail 
transportation coordinator in each state Department of Transportation 
be a cost-efficient means of improving institutional expertise and 
capacity building at the state level for promoting passenger rail?
    Answer. Building institutional expertise and capacity at the state 
level, and across all sectors of the rail industry, will be critical to 
successfully managing the HSIPR Program. A dedicated rail 
transportation coordinator in each state could be one approach to 
developing these capabilities. While the country faces the challenge a 
dwindling pool of rail experts due to previous funding constraints and 
retirements in the rail community, the President's and Congress' 
renewed investment will eventually bring expertise back into the 
industry.

    Question 4. The French TGV and Japanese bullet trains travel at 
over 185 miles per hour, which is much faster than the current ``high-
speed'' rail corridors in the U.S. would allow. Are there plans to 
upgrade U.S. train tracks to allow for greater speeds?
    Answer. Although high-speed rail is defined in the Passenger Rail 
Investment and Improvement Act of 2008 as ``intercity passenger rail 
service that is reasonably expected to reach speeds of at least 110 
mph,'' FRA anticipates high-speed rail service to operate at greater 
speeds depending on track and rights-of-way conditions. In instances of 
completely grade-separated, dedicated rights-of-way, top speeds of 
greater than 150 mph can be expected. The HSIPR Program will fund a 
mixture of new track construction and track rehabilitation projects 
that will allow for high-speed rail service. Ultimately, the nature of 
these service upgrades will depend on the projects states submit for 
consideration under the HSIPR Program.

    Question 4a. Would this additional speed improve the performance 
and ridership levels for Amtrak service in the northeast corridor?
    Answer. While increased top speeds can play a part in improving on-
time performance, modest capacity enhancements and congestion reduction 
measures can often have significant impacts on performance improvement. 
Amtrak is currently undertaking projects funded by their Recovery Act 
program that will result in performance improvements along the 
Northeast Corridor. Ultimately, the nature of future service upgrades 
will depend on the projects states and Amtrak submit for consideration 
under the HSIPR Program and annual Amtrak funding.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Hon. Joseph C. Szabo
    Question 1. With the infusion of new money dedicated to high-speed 
rail, it must be noted that many of these high-speed rail opportunities 
will be using rights-of-way on rail that is actually owned by the four 
big freight railroads. In fact, one potential impediment to rapid 
deployment of ARRA high-speed rail funds is a lack of coordination with 
the railroads. In order for these high-speed rail corridors to work, 
the railroads must be consulted in order to coordinate infrastructure 
improvements and freight and passenger rail schedules. What input have 
you had thus far from freight railroads, and how will their input 
affect plans on developing high-speed rail infrastructure?
    Answer. We anticipate that many intercity and high-speed rail 
development opportunities will be implemented using rights-of-way owned 
by the private freight railroads. The Federal Railroad Administration 
(FRA) recognized this reality in developing the high-speed rail program 
and the freight railroads were an important group that the agency 
reached out to in connection with outreach sessions held in May and 
June of this year in which over 1,100 stakeholders participated in 
seven sessions around the country. As structured through the 
authorizing legislation, FRA's High-Speed Intercity Passenger Rail 
(HSIPR) Program is based upon rail passenger development proposals 
submitted by State governments or public agencies established by one or 
more states with responsibility for intercity or high-speed rail 
services. From the beginning, the agency has encouraged eligible 
applicants to engage key stakeholders, such as infrastructure owners, 
early in the development process. FRA's Interim Guidance implementing 
the HSIPR Program requires each applicant to demonstrate that it has 
reached, at a minimum, agreements in principle with key project 
partners, including but not limited to infrastructure-owning railroads 
and the railroad that operates or will operate the benefiting high-sped 
rail/intercity passenger rail service as to the scope of the proposed 
project and the realization of the operating benefits it is intended to 
generate. A completed agreement with the owning freight railroad 
approved by the Federal Railroad Administration is required before the 
agency will provide funds for a project.

    Question 2. As you assess the various proposals, I hope that you 
are placing emphasis on the multi-modal opportunities made available by 
each project. These high-speed rail projects should serve not only as 
transport from city to city, but should serve as connections between 
different modes of transportation as well. How are you incorporating a 
multi-modal approach into your evaluation process?
    Answer. A multi-modal approach is a key component of our project 
evaluation process. As described in FRA's program implementing guidance 
published in the Federal Register on June 23, 2009, each proposed high-
speed or intercity passenger rail project will be assessed based on its 
demonstration of the project's potential to meet the purpose and need 
and to achieve transportation benefits in a cost-effective manner, as 
set forth through the President's strategic transportation goals and 
the objectives of the Passenger Rail Investment and Improvement Act of 
2008. Factors to be considered in assigning a rating for each project 
include among other things: (1) the contribution the proposed project 
would make to generating cross-modal benefits, including anticipated 
favorable impacts on air, or highway traffic congestion, capacity, or 
safety, and the cost avoidance or deferral of planned investments in 
aviation and highway systems, (2) encouragement of intermodal 
integration through provision of direct, efficient transfers among 
intercity transportation and local transit networks at train stations, 
including connections at airports, bus terminals, subway stations, 
ferry ports, and other modes of transportation, and (3) improved 
freight or commuter rail operations, in relation to proportional cost-
sharing by those other benefiting rail users.

    Question 3. As you and your colleagues make the determination of 
which high-speed rail projects to fund with ARRA funds, I strongly urge 
that you keep in mind performance metrics for the various projects. Do 
you plan on performing cost-benefit and mobility analyses for the 
proposals? Do you plan on putting in place certain performance metrics 
as the funds are allocated to ensure that Federal funds are spent in a 
cost-effective manner where efficient on-time and on-budget projects 
are rewarded?
    Answer. The agency's implementing guidance for the High-Speed 
Intercity Passenger Rail (HSIPR) Program notes that one of the key 
assessment criteria for proposed projects is the project's ability to 
produce a public return on investment, taking into consideration the 
forecasted benefits, the overall cost of the proposed project and the 
amount of Federal funding requested. Applicants are required to provide 
information quantifying the anticipated benefits of the project which 
FRA will use to evaluate applications in a manner consistent with 
Executive Order 12893, Principles of Federal Infrastructure Investment 
which will include a systematic analysis of expected benefits and 
costs, including both quantitative and qualitative measures. Applicants 
are also required to submit a Project Management Plan documenting 
assumptions and decisions regarding the communication, management 
processes, execution and overall project control along with a Financial 
Plan documenting the recent and forecasted financial condition of the 
applicant and other key partners that will provide capital or operating 
funding for project development and/or implementation. Collectively the 
information required through the application process will enable the 
agency to select projects that are cost effective and can be completed 
on time and on budget. These expectations will be reflected in the 
agency's grant agreements with selected applicants.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                       to Hon. Joseph H. Boardman
    Question. Does Amtrak have a plan to reduce Amtrak's energy 
consumption and emissions?
    Answer. Amtrak established a Fuel and Energy Management committee 
whose goal is to identify efficiencies in the way fuel and utilities 
are used by Amtrak that will positively impact Amtrak's overall use of 
these commodities. Members of this committee proposed a 5-year energy 
reduction program at Amtrak's June 2009 Board of Directors meeting. The 
proposed plan clearly states Amtrak's commitment to reducing energy 
usage at all locations across the country and directly aligns with 
Amtrak's corporate goal of becoming a Safer, Greener and Healthier 
Company. Following is a summary of the energy conservation and 
emissions reduction efforts currently underway at Amtrak:

        Facilities/Stations

        In order to identify specific strategies to reduce energy 
        consumption, Amtrak's Utilities Management staff has directed 
        the completion of energy audits at a number of Amtrak's largest 
        maintenance facilities and stations. These audits have 
        identified significant opportunities to reduce energy and water 
        usage and consequently, overall utilities operating expense. A 
        number of these strategies require the use of capital funding 
        to make improvements in lighting, water distribution systems 
        and building control systems within Amtrak's major facilities 
        and stations.

        The energy reduction goal and the plan to achieve that goal 
        will be presented to the Board during the September meeting and 
        is expected to be approved as a part of Amtrak's 5 year plan 
        which is scheduled for release in October 2009.

        Diesel and Electric Locomotives

        Amtrak Transportation implemented improved train handling 
        procedures in order to reduce energy consumption on our diesel 
        and electric locomotive powered trains. In order to ensure 
        compliance, Amtrak supervisors educate, monitor and counsel 
        locomotive engineers regarding their performance related to the 
        improved procedures. The procedures were put into place while 
        awaiting production and delivery of our locomotive simulators.

        Our energy reduction plan involves the use of simulators and 
        new train handling software to teach locomotive engineers the 
        most optimum method to operate a specific train on a specific 
        territory. Using the simulators, our locomotive engineers are 
        given prompts (cues) regarding speed and braking to accomplish 
        the most economical way to operate our trains. These prompts 
        are territory (grade, curvature, speed) and train (number of 
        cars/locomotives) dependent.

    We are also studying the feasibility of equipping our locomotive 
fleet with onboard software which will update to the most optimum train 
handling methods as conditions change. This software would function in 
the same way as the simulators except it will operate in ``real-time''. 
Also, as Positive Train Control (PTC) systems are implemented, we are 
investigating how to achieve an even greater savings by having the 
onboard equipment ``see what's ahead'' by interfacing with the train 
dispatching system to predict the most efficient operating practice.
    The goals below reflect our expectations using the locomotive 
simulators to reduce energy consumption during Fiscal Years 2010 and 
2011:

  <bullet> For Fiscal Year 2010, we expect a 3.2 percent reduction in 
        total diesel fuel consumption from March to September (averaged 
        over entire fiscal 2010 = 1.9 percent reduction). Actual 
        savings will not begin until March 2010, due to simulator 
        deployment and locomotive engineer training during the first 
        half of fiscal 2010.

  <bullet> In fiscal 2011, our goal is a 3.8 percent cumulative 
        reduction in total diesel fuel consumption.

  <bullet> Energy savings as a result of on-board software and PTC 
        implementation are difficult to estimate at this time because 
        the systems are still in the development and test phase. As 
        soon as we determine how these systems interact with our 
        equipment, we will develop the goals for energy conservation.

  <bullet> As methods are deployed to monitor electric energy 
        consumption on electric locomotive powered trains, we will 
        develop goals for energy conservation on these types of trains.
Emissions
    Amtrak has committed to reduce its greenhouse gas emissions from 
diesel locomotive operations by 6 percent between 2003 and 2010 from a 
baseline calculated from the average annual emissions from 1998-2001. 
Amtrak joined the Chicago Climate Exchange in 2003 as a charter member 
and agreed to this reduction--the largest voluntary commitment in the 
United States. We have met all required interim reduction targets 
through 2008.
    CCX provides a voluntary exchange for trading greenhouse gas 
credits (mainly carbon dioxide) using a market-based system. Greenhouse 
gas credits available for trading by Amtrak are based on diesel fuel 
use in the 1998-2001 baseline period versus fuel use calculated in each 
individual year from 2003 to 2010. Fuel use is converted to tons of 
carbon dioxide released in the combustion of diesel fuel. Amtrak's 
1998-2001 baseline is approximately 800,000 metric tons of carbon 
dioxide.
    Amtrak was successful in reducing its diesel fuel consumption below 
the target level for 2008. Total carbon dioxide emissions from diesel 
operations, verified by CCX, were 679,000 tons. The company was able to 
sell some greenhouse gas credits in 2008.
    Diesel emissions were reduced by using:

  <bullet> Anti-idling practices.

  <bullet> Automatic Start/Stop installation--when ambient temperatures 
        are above 40 degrees F.--locomotives shut down.

  <bullet> Aerodynamic improvements of rolling stock--reducing drag.

  <bullet> Consist/Locomotive management--reduces number of locomotives 
        in each consist (trainset).

  <bullet> Locomotive upgrades and improved maintenance.

  <bullet> Locomotive engineer training--fuel saving operational 
        training.

    For electric locomotive operations, Amtrak has begun implementing 
regenerative braking. A study has demonstrated that Acela trains return 
up to 8 percent of the electric power used back to the catenary grid 
when braking. Regenerative braking is being implemented on Amtrak 
electric locomotives on the Northeast Corridor.
    Amtrak has also received grants from the Carl Moyer program in 
California (from the Bay Area Air Quality Management District (AQMD) 
and the South Coast AQMD) for GenSet Switcher locomotives for Oakland 
and Los Angeles. The U.S. EPA and State of Illinois have also awarded a 
grant for a GenSet Switcher for Chicago. When operating in 2010, these 
three GenSet Switchers (of the 53 in the Amtrak fleet) will reduce 
their diesel use by 60 percent and emissions by 70 percent.
    Amtrak also uses solar power for over 50 lubricators for track 
curves (provides a grease to reduce friction) along the Northeast 
Corridor and a solar and wind turbine for signal power in the Chicago 
Rail Yard. A biodiesel fuel trial is planned for the Heartland Flyer 
(Fort Worth--Oklahoma City) sponsored by the FRA and State of Oklahoma 
DOT.
    Additional Amtrak GHG initiatives to help reduce emissions:

        Carbonfund

        Amtrak partnered with Carbonfund in 2007 to offer passengers 
        the opportunity to purchase carbon offsets for their travel on 
        Amtrak.

        Carbonfund is a leading carbon reduction and offset non-profit 
        organization that educates the public about climate issues and 
        makes it easy and affordable for individuals businesses and 
        organizations to reduce their climate impact. Through July 
        2009, Amtrak passengers have purchased 8,000,000 miles of 
        offsets.

        Climate Registry

        Amtrak recently joined The Climate Registry, a non-profit 
        organization, founded to set consistent and transparent 
        standards for businesses and governments to calculate, verify, 
        and publicly report their greenhouse gas emissions. Over 40 
        states are founders of the Climate Registry. As a member, 
        Amtrak committed to comprehensive reporting standards for 
        recording and managing greenhouse gas emissions throughout its 
        system including those from diesel and electric locomotives, 
        passenger rail cars, maintenance equipment, stations, offices 
        and other facilities. Amtrak intends to use the data generated 
        by this initiative to assess the effectiveness of its various 
        environmental polices, determine what changes might be needed, 
        compare itself with industry peers, and identify new 
        opportunities to reduce emissions. Amtrak is the first railroad 
        to join this registry.

        Climate Counts

    Amtrak is participating in Climate Counts, a non-profit 
organization which provides an independent and verifiable assessment of 
a company's commitment to reduce its impact on the environment and 
climate change. The group uses 22 specific criteria to produce a 
scorecard to rate how companies have measured their carbon footprint, 
reduced their impact on climate change, supported effective climate 
legislation and publicly disclosed their climate actions in a clear and 
comprehensive manner. Amtrak intends to use the scorecard to better 
understand its overall impact on climate change. Amtrak is also the 
first railroad to join this group.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Hon. Joseph H. Boardman
    Question 1. How will the $1.3 billion for Amtrak in the American 
Recovery and Reinvestment Act help to jumpstart improvement to the 
Northeast Corridor (NEC), particularly in meeting the deadline of 
bringing the Corridor to a state of good repair by 2018?
    Answer. Stimulus Funding has provided the catalyst to progress many 
projects that are critical to return the Northeast Corridor 
infrastructure to a state of good repair. Currently, Engineering has 
approximately $650 million in the stimulus program in 84 projects on 
the Northeast Corridor directly related to state of good repair. 
However, combined with our estimated general capital programs through 
FY11, NEC Infrastructure is still below the average yearly funding 
level, of nearly $700M, required to bring the Northeast Corridor 
infrastructure to a state of good repair by 2018.\1\ On the Mechanical 
side, the stimulus funds will allow Amtrak to convert, rehabilitate or 
overhaul 55 units of Amfleet 1 equipment, the workhorse passenger car 
of the NEC fleet, ensuring this equipment will be restored to a state 
of good repair (or remain in that condition). The additional equipment 
will allow Amtrak to add incremental capacity as needed and should 
contribute to improved reliability of service in the NEC.
---------------------------------------------------------------------------
    \1\ For additional discussion of Northeast Corridor state of good 
repair requirements, see Northeast Corridor State of Good Repair Spend 
Plan, Prepared by Amtrak under Section 211 of the Passenger Rail 
Investment and Improvement Act of 2008, April 15, 2009 (attached). 
Please note from the report that the majority of the Northeast Corridor 
infrastructure will be in a state of good repair by 2018 if funded at 
the $700M annual level. Under the current plan, as in the report, major 
bridges and tunnels will not be in a state of good repair until the end 
of 2022 due to limited track capacity, combined with very long lead 
times for design and construction.
---------------------------------------------------------------------------
Major Construction Programs ($120M)
    Wilmington, DE Station Restoration ($20M)
    Emergency Backup Power for NY Tunnels ($20M)
    Penn Station Chiller and Abatement Back up Power ($30M)
    NY Fire Standpipe System ($40M)
    NY Penn Station Fire Alarm System ($10M)
Track Programs ($22M)
Highlights include:
    Right of Way Improvements on the Northeast Corridor Washington to 
Boston. These programs include excavation of fouled drainage keyways 
and culvert aprons, tree cutting away from catenary and power 
transmission lines, repairs to collapsed retaining walls and drain 
pipes, and installation of safety guide rails.
Structures Programs ($260M)
Highlights include:
    Niantic River Bridge Replacement ($100M)
    Other Undergrade Bridges ($65M) including Thames River Bridge 
Painting, River Road Bridge in Madison, CT; Bridge replacement, East 
and West Harbor Bridges in Stonington, CT; Miamicock, Bridge in CT; 
Pelham Bay Bridge, Union and Wood Street Bridges in Middletown, PA; 
Orange Street Bridge in Wilmington, DE.
    30th Street Station Philadelphia Facade Restoration ($20M)
    Other station improvements at 17 locations ($30M)
    Facility Upgrades totaling $45M at over 20 locations on the NEC. 
These programs include employee fall protection at 7 NEC locations 
($2M), Southhampton Street Yard Drop Table ($18M), Platform 
Improvements Sunnyside Yard, NY ($8M), employee welfare facilities, 
roofs, platform lighting and utility upgrades.
Electric Traction Programs ($167M)
Highlights include:
    Lamokin Frequency Converter replacement ($60M)
    A&S Branch Transmission Line Replacement ($30M)
    Substation Transformers and Remote Terminal Unit Replacement ($25M)
    Ivy City Substation and Transmission Line Construction ($20M)
    Metuchen Frequency Converter Cable Ductbank Install ($15M)
    Jericho Park Converter Station Refurbishment ($6.5M)
    60 HZ Backup Power ($10M)
Communication and Signal (C&S) Programs ($80M)
Highlights include:
    Installation of Redundant Communication Cable ($10M)
    Install Redundant Cable to Sub-Stations (3M)
    60HZ Backup Cable Into Each C&S Location New England Division 
($3.5M)
    Install Redundant Radiating Cable in NY Tunnels and Baltimore 
Tunnels ($8.7M)
    Positive Train Control NEC ($50M)
    Fall Protection for 220 Signal Bridges ($5M)
Amfleet Overhauls, Conversions and Wreck Repairs ($58.5M)
Highlights include:
    20 Amfleet I Food Service Cars converted to coach cars
    7 Amfleet I Coaches rehabilitated from wreck status and overhauled
    28 Amfleet Coach and Food Service Car overhauls
    5 Amfleet II Cars used primarily in long distance service will be 
brought back from wreck status and overhauled

    Question 2. The Passenger Rail Investment and Improvement Action of 
2008 (P.L. 110-432) expanded the authority of the Surface 
Transportation Board to investigate and remedy passenger rail on-time 
performance issues. How has the enactment of this law affected Amtrak's 
on-time performance? What result will an improvement in on-time 
performance have on Amtrak's bottom line?
    Answer.

                      Endpoint On Time Performance
------------------------------------------------------------------------
                           Since PRIIA           Point Improvement Since
                         16Oct08-31Jul09  FY08            PRIIA
------------------------------------------------------------------------
System                     80.3%          71.2                      9.1
                                           %
NEC                        83.9%          81.0                      2.9
                                           %
Short Distance (Off-       79.3%          68.6                     10.7
 NEC)                                      %
Long Distance (Off-NEC)    74.6%          54.2                     20.4
                                           %
------------------------------------------------------------------------

    Since enactment of PRIIA, OTP has improved by 20.4 percentage 
points over FY 2008 on long distance trains, and by 10.7 percentage 
points on short distance trains off the NEC. Amtrak analysis indicates 
that the largest driver of this improvement is management actions by 
host railroads following enactment of PRIIA. This also builds on 
improvements made in FY 2007-2008 in anticipation of PRIIA; total OTP 
improvement to long distance trains since FY 2006 is 44.6 percentage 
points (from 30.0 percent to 74.6 percent). Amtrak anticipates that the 
most substantial and lasting impact to OTP will come from adoption of 
metrics and standards jointly by FRA and Amtrak, as required by PRIIA 
Section 207. Once the metrics and standards are published, additional 
improvement is expected as hosts and Amtrak bring operations into line 
with the new standards.
    A March 2008 study by the DOT Inspector General predicted an annual 
revenue gain of $111 million (relative to FY 2006) due to sustained OTP 
of 85 percent. The full revenue benefit identified by the DOT IG is 
based on a stable economy, and can only be reasonably attained after a 
record of sustained high performance. Nonetheless, Amtrak's long 
distance routes, which have experienced the largest OTP improvement, 
grew revenue by $10 million through June 2009 despite the weak economy. 
This suggests that, in general, revenue is benefiting from improved OTP 
as predicted by the DOT IG's report.

    Question 3. The Passenger Rail Investment and Improvement Act of 
2008 (P.L. 110-432) requires Amtrak and the Federal Railroad 
Administration to develop standards for measuring the performance and 
service quality of Amtrak's operations. These were due to be completed 
in April, but have not been completed yet. When can we expect that they 
will be completed?
    Answer. Amtrak and the Federal Railroad Administration jointly 
prepared an Exposure Draft of proposed Section 207 Metrics and 
Standards that was posted for stakeholder comments in the Federal 
Register on March 13, 2009. On April 13, Amtrak forwarded to FRA a 
revised proposal that reflected the stakeholder input that had been 
received. However, in light of the FRA's responsibilities for 
implementing the provisions of the American Recovery and Reinvestment 
Act, Amtrak has not yet received a response from FRA. Based upon 
informal conversations with the FRA, Amtrak expects that the PRIIA 
Section 207 Metrics and Standards work will be completed by the end of 
August, 2009.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Hon. Joseph H. Boardman
    Question 1. In the Mountain West states, Amtrak's passenger lines 
run East-West without any North-South lines to connect passenger 
service in the region. For example, to reach Denver or El Paso by train 
from Albuquerque, one would need to make a connection in Chicago or Los 
Angeles. Has Amtrak considered or studied options to improve passenger 
service in the Mountain West, such as potentially adding a new 
intercity line to connect the California Zephyr, Southwest Chief, and 
Sunset Limited?
    Answer. Amtrak currently offers Thruway bus services that connect 
the California Zephyr, Southwest Chief and Sunset Limited routes.
    Amtrak has not studied the potential for a new North-South Amtrak 
route in the Mountain West states. Amtrak is currently conducting to 
statutorily mandated studies, which will be completed in October, of 
the potential for restoring Amtrak service on two East-West routes 
through this region: the former Pioneer route between Denver/Salt Lake 
City and Seattle, and the former North Coast Hiawatha route between 
Chicago and Seattle via the southern portions of North Dakota and 
Montana.
    Amtrak believes that additional long distance routes could produce 
many public benefits, including enhancing connectivity within Amtrak's 
route network and providing an important transportation option for 
communities not currently served by Amtrak, particularly those in which 
intercity bus and airline service is limited or non-existent. However, 
expansion of Amtrak's route network would require significant 
additional Federal and/or state funding for both capital costs (for 
equipment, stations, and investments to upgrade tracks and increase 
rail line capacity) and for operating costs not covered by farebox 
revenues. Current Federal and state funding of Amtrak does not allow us 
to expand our long distance network beyond its current size or 
undertake numerous studies to consider additional routes.

    Question 2. Amtrak performs reasonably well along the northeast 
corridor. Yet in the West, Amtrak service does not compete with 
traveling by airplane or by car. Despite the longer distances between 
cities in the American West, I believe that passenger rail could have a 
much greater role than it plays today. After all, the arrival of 
railroads in the 19th century gave birth to many western towns now 
connected only by roads. How can passenger rail be revived in the West 
as a viable alternative to traveling by car or by plane?
    Answer. Amtrak assumes that this question pertains to the Mountain 
West states, since the highly successful Amtrak service on the four 
state-supported corridor routes in the West Coast states is very 
competitive with travel by airplane and car. The 6.3 million passengers 
on Amtrak's West Coast corridor routes last year accounted for more 
than 20 percent of Amtrak's nationwide ridership.
    The four Amtrak long distance routes that serve the Mountain West 
states--the Sunset Limited; Southwest Chief; California Zephyr; and 
Empire Builder--play a vital role in many small and mid-sized 
communities that have few--if any--other intercity public 
transportation options. A 2002 report by the Great American Station 
Foundation (subsequently renamed Reconnecting America) entitled 
``Pulling Out All the Stops: The Real Cost of Losing Passenger Rail 
Service in New Mexico'' concluded that residents of small and rural New 
Mexico communities served by Amtrak ``rely on Amtrak to provide a key 
transportation alternative'', and that ``Amtrak passenger service at 
each of the communities is an essential component of the regional and 
statewide tourism industry.'' The importance of Amtrak service in the 
New Mexico communities along the Southwest Chief route has increased 
since publication of the report due to reductions in intercity bus 
service.
    As the question suggests, there are challenges associated with 
expanding intercity passenger rail service in the Mountain West states. 
Distances between major cities are generally longer, and population 
densities lower, than in the East and along the West Coast. The states 
in the region have not historically provided the funding support that 
has enabled expansion of Amtrak services in other regions of the 
country. However, the Mountain West states also have characteristics 
that could facilitate the development of intercity passenger rail 
service. Their major metropolitan areas are experiencing significant 
increases in population. It is easier and less expensive to construct 
or improve a rail line along routes with low intermediate population 
density than in more urbanized areas of the country. The development of 
new commuter rail or local rail transit services in Albuquerque, 
Phoenix and Salt Lake City within the past few years, and Denver's 
ambitious plans for expanded rail transit and new commuter rail 
services, provide the local rail connections and facilitate the transit 
oriented development that have played such an important role in the 
development and expansion of Amtrak services in other regions of the 
country.
    The $8 billion in Federal funding that the American Recovery and 
Reinvestment Act (``ARRA'') provides for intercity/high-speed passenger 
rail service creates an unprecedented opportunity for states to begin 
or accelerate the development of intercity passenger rail services. The 
states of Texas, New Mexico and Colorado have announced plans to seek 
ARRA funding to study a potential high-speed rail corridor linking 
Denver, Albuquerque and El Paso.
    Perhaps the most critical prerequisite to expansion of passenger 
rail service is the preservation of key rail lines and infrastructure 
required for potential future passenger rail services, which are often 
irreplaceable if lost. The agreement Amtrak recently entered into with 
the Denver Regional Transportation District regarding the 
reconstruction of the tracks and platforms at Denver Union Station for 
commuter rail service includes provisions sought by Amtrak which ensure 
that the project will preserve existing options for construction of a 
connection that would provide access to the station tracks for future 
passenger rail service operating between Denver and the South. 
Preservation of the ``Raton Pass Line'' from Albuquerque to Trinidad, 
CO, over which Amtrak's Southwest Chief operates, is critical both to 
retaining the service provided by that train and to future development 
of high-speed rail service between Albuquerque and Denver. The Raton 
Pass Line, which the state of New Mexico announced a not-yet-
consummated agreement to acquire in 2005, was identified by Amtrak as 
one of its most ``At Risk'' lines in a 2004 report due to minimal 
freight traffic.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                        Hon. Joseph H. Boardman
    Question. When I was Governor of Virginia, we invested significant 
resources in the Washington to Richmond rail corridor. These 
investments bought Virginia four train slots that we are now using to 
extend two Northeast Corridor trains to Richmond and Lynchburg. In the 
past, you and your predecessor, Mr. Kummant, have both indicated that 
you would like to extend high-speed or electrified rail from Washington 
to Richmond. Is that still the case? Also, what impact would an 
extension to Richmond or Petersburg have on the Northeast Corridor, 
both in terms of congestion and financial cost?
    Answer. As you have stated, the improvements that the Commonwealth 
of Virginia funded on the Washington-Richmond line have increased 
capacity on that line and will allow for the extension of additional 
Northeast Regional service south of Washington. Starting October 1, one 
new daily round trip will run south to Alexandria and Lynchburg; and 
one new daily round trip will run south to Alexandria and Richmond 
starting in December.
    I have supported the concept of electrifying the rail corridor 
along I-95 south of Washington to Richmond and beyond, and I continue 
to do so. However, the cost of petroleum has declined significantly 
since mid-2008 and, while it may well increase again, for now the case 
for electrification is less pressing than it was a year ago. Also, in 
the nearer term, both the Commonwealth and the track owner, CSX 
Transportation, favor other projects that would expand capacity on the 
route, and we support such capacity expansion. This summer, many 
states, in consultation with Amtrak and other host railroads, have been 
discussing, refining, and submitting applications for competitive 
intercity passenger rail grant funds available through the American 
Recovery and Reinvestment Act (ARRA). The Commonwealth's submission for 
a Washington to Richmond/Petersburg corridor program includes many 
capacity expansion projects, and foresees an increase in train 
frequencies and ridership south of and through Washington, primarily 
using existing train slots on the Northeast Corridor. Amtrak has 
informed the Commonwealth that we support their submission and that we 
will work with the Commonwealth to advance the program.
    Additionally, Amtrak is deeply involved in a Northeast Corridor 
Master Plan process that was authorized by the Passenger Rail 
Investment and Improvement Act (PRIIA) and that also involves Northeast 
Corridor states and other stakeholders. Electrification to Richmond 
would streamline our train operations at Washington Union Station by 
eliminating the need to change locomotives there and would improve 
travel times and encourage increased ridership south of Washington. 
However, because of the emphasis being placed on capacity expansion by 
the Commonwealth and CSX Transportation, as outlined above, the current 
Northeast Corridor Master Plan does not assume electrification south of 
Washington and does not attempt to quantify ridership increases related 
to electrification. We remain open to studying electrification in a 
future phase of the Master Plan, provided that the Commonwealth informs 
us of their interest in the idea and that adequate funding is provided.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                          to Susan A. Fleming
    Question. What challenges must we overcome to ensure high-speed 
rail on new and existing intercity corridors is competitive with other 
transportation modes?
    Although high-speed rail programs have existed prior to the 
Recovery Act, there has been no national plan to guide the role of 
high-speed rail in the U.S. transportation system. Many high-speed rail 
proposals that exist today are not born out of a structured Federal 
transportation planning process, but were initiated by varying groups 
of project sponsors that have included states, Amtrak, Federal 
agencies, and private companies. Because these proposals are developed 
outside the planning process, it is more difficult to attract funding 
and garner political and public support.
    Answer. High-speed rail could have a place in the national 
transportation network if it is developed in corridors where trip 
lengths are time and price competitive with other modes of 
transportation, and that have dense populations, heavy travel demand 
and strained capacity. To be time-competitive with other modes, it is 
likely that high-speed rail will need to run on dedicated tracks and 
not share track with freight or commuter services. Keeping costs down 
is also important, and projects that would have an advantage are those 
that can use an existing right of way safely--although not necessarily 
sharing tracks with other rail users--and are relatively flat with 
relatively straight tracks. Finally, to be a viable transportation 
choice, service must be frequent, convenient, and safe.
    Developing high-speed rail in the U.S. is possible, but it will 
certainly not be easy. Recent Federal actions indicate a shift in this 
country's commitment to high-speed rail. However, sustained Federal 
leadership and commitment will be needed, as well as sustained 
leadership and commitment from state and local governments and the 
private sector.
    Second, a strategic vision for high-speed rail, particularly in 
relation to its role in the Nation's transportation system, should be 
developed that clearly identifies potential objectives and goals and 
the roles of Federal and other stakeholders. Third, and related to the 
strategic vision, the Department of Transportation needs to clearly 
identify the expected outcomes from development of high-speed rail 
projects and develop the performance measures to show whether these 
outcomes are being achieved. Finally, reliable ridership forecasts and 
cost forecasts are critical factors in determining whether a high-speed 
rail in a particular corridor is potentially viable. FRA needs to take 
the lead to develop guidance and methods to ensure that these forecasts 
are consistent and reliable across potential corridors.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Susan A. Fleming
    Question 1. The development of high-speed rail projects is going to 
require coordination among many stakeholders, including Federal, state, 
and local governments, Amtrak, the host freight railroads, and others. 
What is the best way to effectively coordinate among all of these 
stakeholders?
    Answer. We have identified key practices that can help enhance and 
sustain collaboration among Federal agencies and other stakeholders.\1\ 
These practices provide a number of actions FRA could take to shape its 
efforts and guide coordination among agencies, states, local 
governments, and other stakeholders in developing intercity passenger 
high-speed rail service:
---------------------------------------------------------------------------
    \1\ GAO, Results Oriented Government: Practices that Can Enhance 
and Sustain Collaboration among Federal Agencies, GAO-06-15 (Washington 
D.C., October 21, 2005).

---------------------------------------------------------------------------
  <bullet> Define and articulate common outcomes.

  <bullet> Establish mutually reinforcing or joint strategies.

  <bullet> Identify and address needs by leveraging resources.

  <bullet> Agree on roles and responsibilities.

  <bullet> Establish compatible policies, procedures, and other means 
        to operate across agency boundaries.

  <bullet> Develop mechanisms to monitor, evaluate, and report on 
        results.

  <bullet> Reinforce agency accountability for collaborative efforts 
        through agency plans and reports.

  <bullet> Reinforce individual accountability for collaborative 
        efforts through performance management systems.

    Question 2. How do we encourage investment, from both state 
government and the private sector, in high-speed rail?
    Answer. One way to encourage state participation is for there to be 
a stable Federal funding stream. Another approach is to reduce funding 
silos in which Federal funds are often tied to a single transportation 
mode, which may limit the use of these funds to finance the greatest 
improvements in mobility.\2\
---------------------------------------------------------------------------
    \2\ GAO, Transportation Programs: Challenges Facing the Department 
of Transportation and Congress, GAO-09-435T (Washington, D.C.: Mar. 10, 
2009).
---------------------------------------------------------------------------
    We have found that the assumption of some risk by the public sector 
could encourage private sector investment in passenger rail 
projects.\3\ We found that in the private sector, while firms have 
expressed interest in high-speed rail projects, without public sector 
commitment--both financial and political--they said their involvement 
and financing would be limited, due to the significant financial and 
ridership risks of such projects. Both current and terminated domestic 
high-speed rail project sponsors have sought private financing, but 
found it difficult to secure this investment, given these risks. Public 
private partnerships are one means foreign governments are seeking to 
share in the financial risks of their high-speed rail systems, and 
there is less risk for the private sector to either operate or manage 
the infrastructure. For example, in March 2009, we reported a public-
private partnership contract scheme was under discussion in France, in 
which risks associated with financing, designing, building, and 
maintaining a high-speed rail line would be allocated to the private 
sector, which would receive a set payment for making the infrastructure 
available. In such an arrangement, the private sector, serving as the 
infrastructure manager, would not take on any ridership risk.
---------------------------------------------------------------------------
    \3\ GAO, High-Speed Passenger Rail: Future Development Will Depend 
on Addressing Financial and Other Challenges and Establishing a Clear 
Federal Role. GAO-09-317 (Washington D.C., March 19, 2009).

    Question 3. What have been the major obstacles to the development 
of high-speed rail in our country?
    Answer. Although high sped rail programs have existed prior to the 
Recovery Act, there has been no national plan nor stable and 
significant funding to guide the role of high-speed rail in the U.S. 
transportation system, whereas competing transportation modes, such as 
automobile and bus travel, cost less and have a long standing 
institutional framework for investment in the United States.
    The high-speed rail proposals that exist today were not created 
from a structured Federal transportation planning process, but were 
initiated by varying groups of project sponsors that have included 
states, Amtrak, Federal agencies, and private companies. Because these 
proposals are developed in the absence of an established institutional 
framework, it is more difficult to attract funding and garner political 
and public support.
    In addition to project sponsors, high-speed rail projects involve 
numerous stakeholders and jurisdictions, given that projects can span 
hundreds of miles and sometimes cross multiple states. These factors 
make reaching consensus on routes and other project decisions 
difficult. Some high-speed rail proposals have failed in part due to an 
inability to sustain the public and political support needed to carry a 
project through multiple political cycles and a lengthy development 
timeline, and due to the challenges in securing the high up-front costs 
for the projects. Initiatives in Texas and Florida both failed to 
overcome these challenges.

    Question 4. What steps can the administration take to ensure that 
the Federal Government's plan for high-speed rail is sound and 
effective?
    Answer. Benefits should be weighed against costs for all programs 
to ensure the highest value for Federal dollars can be gained. In order 
to maximize the value of any Federal investments in high-speed 
intercity passenger rail service, the FRA should invest in projects 
that have the highest chance of becoming economically viable. We have 
found that viable high-speed rail projects have trip lengths that are 
time and price competitive with other modes of transportation, have 
dense populations, have heavy travel demand and strained capacity in 
competing transportation modes. To be time-competitive with other 
modes, it also is likely that high-speed rail will need to run on 
dedicated tracks and not share track with freight or commuter services. 
Additionally, to be a viable transportation choice, high-speed rail 
service must be frequent, convenient, and safe.

    Question 5. Has GAO had an opportunity to review FRA's Interim 
Program Guidance issued last Wednesday concerning high-speed rail 
funding? If not, would you follow-up with us with GAO's views, 
particularly any areas of concern that you believe warrant FRA's 
attention?
    Answer. FRA's Interim Program Guidance met the requirements in the 
Recovery Act to establish funding guidelines for the Recovery Act's 
high-speed rail funding in a short time. Figuring out how best to 
develop high-speed and other intercity passenger rail programs in a 
short time now that there is significant Federal funding available will 
be a complex task. FRA officials told us that the program will continue 
to take shape as they work with stakeholders and as the agency gains 
the capacity to deal with the challenges of developing a high-speed 
rail program.
    We do not see--and did not expect to see--resolution of the larger 
issues discussed in our March report. FRA officials told us that they 
largely agree with those assessments--that is, establishing clear 
Federal objectives, roles for all stakeholders, and identifying 
expected outcomes, and ensuring the reliability of ridership and other 
forecasts--and expect to begin working to those ends. We find this 
encouraging and are looking forward to seeing the fruits of FRA's 
efforts.

    Question 6. What are some of the lessons learned from the Acela 
project that can be of benefit to future projects' successes?
    Answer. The Acela program is the centerpiece of Amtrak's intercity 
passenger rail system. We found several lessons for developing high-
speed rail lines in the U.S.\4\ As we found in the case of Amtrak and 
FRA management of Acela, long-term and comprehensive oversight is 
needed. In addition to managing short-term improvements and 
acquisitions, an operator must sufficiently address major 
infrastructure improvements needed to meet established trip-time goals. 
Furthermore, integration of stakeholder interests into planning and 
management as well as cooperation among stakeholders is needed to meet 
established service goals. This is important for any high-speed rail 
development off of the Northeast Corridor as many stakeholders 
(including commuter and freight rail operators and infrastructure 
owners and state and local governments) may be involved. Finally, 
sufficient oversight is needed from the Federal level, to adequately 
oversee an operator's management of a project and the use of Federal 
funds.
---------------------------------------------------------------------------
    \4\ GAO, Intercity Passenger Rail: Amtrak's Management of Northeast 
Corridor Improvements Demonstrates Need for Applying Best Practices, 
GAO-04-94 (Washington D.C., February 27, 2004).

    Question 7. What are your recommendations for ensuring the accuracy 
of ridership projections, and all other projections in each project's 
business plan, in order to ensure that the most viable projects are 
selected for funding assistance?
    Answer. Ridership and cost forecasts for transportation projects 
are often significantly optimistic, and different ridership forecasting 
methods may yield uncertain results. It is important for FRA to 
incorporate analytical tools and approaches to ensure the reliability 
of ridership and other forecasts used to determine the viability of 
high-speed rail projects and to support the need for Federal grant 
assistance. Obtaining forecasts from independent sources and subjecting 
forecasts to peer review are among ways to potentially increase the 
reliability of ridership and cost projections. Other ways to ensure 
more reliable projections from project sponsors include obligating 
state and local governments to share some of the risks of 
underestimated costs for those projects seeking Federal financial 
support, and conducting horizontal comparisons of projects--that is, 
using a standardized accounting system to measure the accuracy of 
project estimates of cost and demand.
    Further, objectives, goals, and performance measures are the 
starting place for any endeavor as they force a clear delineation on 
what is to be achieved, provide a means for measuring progress and, 
ultimately, whether the desired outcomes are being achieved. Finally, 
decisionmakers are now making surface transportation investment 
decisions, including funding for high-speed rail, in a modal vacuum--
that is, without considering a multimodal transportation system. Modal 
stovepipes hinder multimodal thinking and, consequently, not all 
transportation alternatives are weighed in the transportation planning 
process.\5\
---------------------------------------------------------------------------
    \5\ GAO, Surface Transportation: Restructured Federal Approach 
Needed for More Focused, Performance-Based and Sustainable Programs. 
GAO-08-400 (Washington D.C., March 6, 2008).
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Susan A. Fleming
    Question 1. Can you offer the Subcommittee, and FRA, specific 
suggestions to address your concerns about FRA's strategic plan?
    Answer. Given the complexity, high cost, and long development time 
for high-speed rail projects, it is critical to first determine how 
high-speed rail fits into the national transportation system and 
establish a strategic vision and goals for such systems. This will 
establish the baseline for Federal involvement.
    We think it is critical that a national vision of high-speed rail 
not focus on connecting the Nation by high-speed rail, but rather focus 
on the multimodal transportation system as a whole. It should identify 
where high-speed rail can have the most benefit in terms of expanding 
capacity, alleviating congestion, and reducing emissions. Our work 
shows that this would be in corridors and city pairs that are densely 
populated and roughly 100 to 500 miles apart and provide safe, 
efficient and frequent service.

    Question 2. There are many examples of federally-financed 
transportation projects coming in way behind schedule and over budget. 
Based on your past work at the GAO, what steps do you think the 
Department needs to take to minimize the risk of overdue, over budget 
projects occurring in the high-speed rail program?
    Answer. We have identified best practices that could provide a 
framework to effectively manage future large-scale intercity passenger 
rail infrastructure projects, which can also be applied to developing a 
high-speed rail program.\6\ These best practices include:
---------------------------------------------------------------------------
    \6\ GAO, Intercity Passenger Rail: Amtrak's Management of Northeast 
Corridor Improvements Demonstrates Need for Applying Best Practices, 
GAO-04-94 (Washington D.C., February 27, 2004).

---------------------------------------------------------------------------
  <bullet> comprehensive planning

  <bullet> risk assessment and mitigation

  <bullet> comprehensive financial management

  <bullet> accountability and oversight, and

  <bullet> incorporation of diverse stakeholders' interests.

    These practices have proved effective in managing large-scale 
infrastructure projects and could assist in managing future projects 
such as the high-speed rail program.
    Similarly, our work in the highway area may shed some light into 
reducing the risk that infrastructure projects come in behind schedule 
and over budget.\7\ We found a need for the Federal Highway 
Administration (FHWA) to link funding to outcome measures or 
performance goals so that the department can define a role and purpose 
to its oversight. We also found a need for FHWA to transform its 
workforce to meet an evolving oversight mission. We also found that as 
the number and complexity of FHWA's programs grew, the agency needed 
the ability to absorb new responsibilities. We also noted somewhat 
similar issues in the aviation area.\8\
---------------------------------------------------------------------------
    \7\ GAO, Federal-Aid Highways: FHWA Needs a Comprehensive Approach 
to Improving Project Oversight, GAO-05-173 (Washington, D.C, January 
31, 2005).
    \8\ GAO, Federal Aviation Administration: Challenges Facing the 
Agency in Fiscal Year 2009 and Beyond, GAO-08-460T (Washington D.C., 
February 7, 2008).

    Question 3. In your testimony, you mention that ``To stay within 
financial or other constraints, project sponsors typically make trade-
offs between cost and service characteristics.'' At what point do such 
trade-offs impede a project's likelihood of economic success?
    Answer. The economic viability of high-speed rail is affected by a 
number of factors, including trade-offs between cost and service 
characteristics. The foreign high-speed rail systems we reviewed 
attributed their ability to achieve time-competitiveness, frequency, 
reliability, and safety to operating on dedicated track and having no 
at-grade highway or other crossings. Incremental projects on track 
shared with freight operators may be less expensive, but these tracks 
often cannot achieve the same types of travel time-competitiveness or 
reliability as dedicated track, which is not shared with other trains. 
Construction costs varied significantly among foreign countries we 
examined--ranging from around $40 million to over $140 million per 
route mile--due to the extent of infrastructure improvements needed, 
land costs, variable terrain, and safety requirements such as 
antiseismic safeguards. Costs of high-speed rail tend to be lower in 
corridors where right-of-way exists that can be used for rail purposes, 
and a relatively flat- and straight-alignment can be used, compared 
with corridors that require the acquisition of new rights-of-way, 
substantial tunneling, or bridges.

    Question 4. What are the most important findings from your March 
2009 high-speed rail study?
    Answer. Developing high-speed rail in the U.S. is possible, but it 
is certainly not easy. We have found four factors necessary to 
establish high-speed intercity passenger rail service in the U.S. 
Recent federal actions indicate a shift in this country's commitment to 
high-speed rail. However, sustained Federal, state, local and private 
sector leadership and commitment will be needed in order to establish 
and sustain high-speed intercity passenger rail service.
    Second, a strategic vision for high-speed rail, particularly in 
relation to its role in the Nation's transportation system, should be 
developed that clearly identifies potential objectives and goals and 
the roles of Federal and other stakeholders.
    Third, and related to the strategic vision, the Department of 
Transportation needs to clearly identify the expected outcomes from the 
development of high-speed rail projects and define the performance 
measures that show whether these outcomes are being achieved.
    Finally, reliable ridership and cost forecasts are critical factors 
in determining whether a high-speed rail in a particular corridor is 
potentially viable. FRA needs to take the lead to develop these 
forecasting methods.

    Question 5. What are the lessons learned from studying high-speed 
rail in other countries?
    Answer. In the countries we visited, high-speed rail lines are 
safe, reliable, and are designed to be time- and price-competitive with 
other transportation modes. In addition, government policies relative 
to other transportation modes contributed to the relative 
competitiveness of rail--which is a situation far different than the 
situation here in the U.S. For example, the highway corridor between 
Tokyo and Osaka is heavily tolled--costing over $200 each way--which 
results in making the trip by car more expensive than it would be by 
train.
    Next, there was a commitment and priority made by the national 
government to develop high-speed rail. This would not have occurred 
without significant and sustained financial investment by the national 
government. In France, Spain, and Japan, the central governments 
generally funded the majority of up-front construction costs of high-
speed rail projects--often without the expectation that their 
investment will be recouped. This model, coupled with an intermodal 
perspective and national visions and goals, are key components 
influencing the successful development of high-speed rail systems in 
Europe and Asia.
    Another lesson learned was that initial development focused on 
building one trunk line between two cities with very high populations 
and densities and an existing market of intercity travelers on other 
transportation modes. These lines (which include Paris-Lyon, Tokyo-
Osaka, and Madrid-Seville) have been the most viable where rail 
revenues were sufficient to cover ongoing operations costs as well as 
to recoup at least some of the initial investment costs.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                           to Tom R. Skancke
    Question. What challenges must we overcome to ensure high-speed 
rail on new and existing intercity corridors is competitive with other 
transportation modes?
    Answer. Chairman Rockefeller, in my opinion, the biggest challenge 
we must overcome first is getting Congress to agree that high-speed 
rail is a modal choice. Then we move on from there. As a nation, we 
must agree, like we did with the interstate highway system, that high-
speed rail is a viable means of transporting people and then make the 
necessary investment.
    For the past half century, we have regulated our transportation 
programs so much that our systems are failing. The regulatory process 
for a New Starts can often times take up to 18 years and that does not 
compete well with other transportation modes. Just to get a project 
delivered is a barrier to entry for many cities and states.
    Additionally, we cannot look at a high-speed rail network in 50-100 
different pieces it must be a national system with 21st Century 
technology that can move America. We cannot have Texas and California 
with two separate systems. We need to treat the high-speed rail network 
as a national system, just like the interstate highway.
    When it is all said and done, the biggest challenge is going to be 
to get a majority of Congress to agree that high-speed passenger rail 
should be competitive with other modes; and then the next challenge 
will be how it is funded. We need to create a reliable national system 
with a strong vision that has tremendous accountability factors built 
into the program. Not regulation which keeps us from building a system, 
but rather real accountability. We must restore ``trust'' to the 
highway trust fund first with a performance based highway and rail 
system then we can ask America to invest in high-speed rail. This is 
America, we created the interstate highway system and we can create a 
high-speed rail system that serves the people of this country. It can't 
take 50 years to do it. Set the priority and then fund it.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Tom R. Skancke
    Question. Transportation options are limited in many rural areas, a 
problem compounded when Amtrak was forced to cut back services because 
of underfunding. How can intercity passenger rail be better utilized to 
connect rural America?
    Answer. Chairman Lautenberg, rural connectivity is critical to the 
future of our Nation's sustainability. In order to connect rural 
America to urban America, we need a system that is predicable, 
reliable, and safe. Rural connectivity is going to require a vision our 
Nation can invest in. It will require a system that is truly high-
speed, 21st Century technology where riders see results. If it takes 
less time to drive, passenger rail will not be the chosen mode. 
Additionally, like any rail project in this country our Nation will 
need to make passenger rail a priority. I believe we have set our rail 
systems up to fail because as a nation, we have not made passenger rail 
the high priority it should be. Highways have been the priority for the 
past half century and we need to shift our priorities. We need both . . 
. highways and passenger rail.
    It is also going to take an incredible amount time and effort to 
educate the public about passenger rail and the benefits that come with 
it. Americans are so used to having their own individual mode of 
transportation and that needs to change.
    Rural America is suffering as much as urban America. We need to 
fund the highway trust fund to the highest levels, restore faith, hope 
and accountability to the program, remove programmatic and regulatory 
barriers to entry so a national system can be designed and constructed 
in 10 years not 50 years.
                                 ______
                                 
     Written Question Submitted by Hon. John D. Rockefeller IV to 
                           Hon. Robert Eckels
    Question. As the Federal Railroad Administration noted in its 
strategic plan, some States lack the financial resources to make 
capital investments or take on potential rail operational expenses. How 
does Texas plan on funding the operational costs for new intercity 
passenger rail corridors? Is the State prepared to offer the financial 
support necessary to fund the long-term operational costs?
    [The witness did not respond.]
                                 ______
                                 
       Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Hon. Robert Eckels
    Question. Transportation options are limited in many rural areas, a 
problem compounded when Amtrak was forced to cut back services because 
of underfunding. How can intercity passenger rail be better utilized to 
connect rural America?
    [The witness did not respond.]

                                  <all>

</pre></body></html>
